<html>
<title> - THE PROBLEM OF METHAMPHETAMINE IN INDIAN COUNTRY</title>
<body><pre>[Senate Hearing 109-499]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-499
 
            THE PROBLEM OF METHAMPHETAMINE IN INDIAN COUNTRY

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

            THE PROBLEM OF METHAMPHETAMINE IN INDIAN COUNTRY

                               __________

                             APRIL 5, 2006
                             WASHINGTON, DC



                    U.S. GOVERNMENT PRINTING OFFICE
27-930                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

                     JOHN McCAIN, Arizona, Chairman

              BYRON L. DORGAN, North Dakota, Vice Chairman

PETE V. DOMENICI, New Mexico         DANIEL K. INOUYE, Hawaii
CRAIG THOMAS, Wyoming                KENT CONRAD, North Dakota
GORDON SMITH, Oregon                 DANIEL K. AKAKA, Hawaii
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
MICHAEL D. CRAPO, Idaho              MARIA CANTWELL, Washington
RICHARD BURR, North Carolina
TOM COBURN, M.D., Oklahoma

                 Jeanne Bumpus, Majority Staff Director

                Sara G. Garland, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Azure, Karrie, United Tribes Muti-Tribal Indian Drug and 
      Alcohol Initiative, United Tribes Technical College........    24
    Burns, Hon. Conrad, U.S. Senator from Montana................     2
    Chaney, Christopher B., deputy bureau director, BIA, Office 
      of Law Enforcement Services, Department of the Interior....     5
    Dekker, Anthony, associate director, Clinical Services, 
      Phoenix Indian Medical Center..............................     6
    Dorgan, Hon. Byron L., U.S. Senator from North Dakota, vice 
      chairman, Committee on Indian Affairs......................     1
    Edwards, Gary, chief executive officer, National Native Law 
      Enforcement Association....................................    22
    Gidner, Jerry, deputy bureau director, BIA, Tribal Services, 
      Department of the Interior.................................     5
    Keel, Jefferson, first vice president, National Congress of 
      American Indians and Lieutenant Governor of the Chickasaw 
      Nation.....................................................    19
    Mead, Matthew H., U.S. Attorney, District of Wyoming.........     9
    McSwain, Robert, deputy director, IHS, Department of Health 
      and Human Services.........................................     6
    Murkowski, Hon. Lisa, U.S. Senator from Alaska...............    29
    Perez, Jon, director, IHS, Division of Behaviorial Health, 
      Department of Health and Human Services....................     6
    Ragsdale, Pat, director, BIA, Department Of the Interior.....     5
    Wesley-Kitcheyen, Kathleen, chairwoman, San Carlos Apache 
      Tribe......................................................    16

                                Appendix

Prepared statements:
    Akaka, Hon. Daniel K., U.S. Senator from Hawaii..............    35
    Azure, Karrie................................................    38
    Child Welfare League of America..............................    45
    Cross, Terry L., executive director, National Indian Child 
      Welfare Association........................................    53
    Edwards, Gary................................................    63
    Keel, Jefferson (with attachment)............................    66
    Kitcheyen, Kathleen..........................................    95
    MacDonald-LoneTree, Hope, chairperson, Public Safety 
      Committee, Navajo Nation Council...........................   104
    McSwain, Robert (with attachment)............................   108
    Mead, Matthew H. (with attachment)...........................   118
    Montana-Wyoming Tribal Leaders Council.......................   140
    National Indian Head Start Directors Association (with 
      attachment)................................................   161
    Posey, Ivan D., chairman, Eastern Shoshone Business Council..    35
    Ragsdale, Pat................................................   166
    Washoe Tribe of Nevada and California........................   171
Additional material submitted for the record:
    Shaffer, Sue, chairman, Cow Creek Band of Umpqua Tribe of 
      Indians, (letter with attachments).........................   178
    Wilson, Ryan, president, National Indian Education 
      Association (letter).......................................   200


            THE PROBLEM OF METHAMPHETAMINE IN INDIAN COUNTRY

                              ----------                              


                        WEDNESDAY, APRIL 5, 2006


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
485 Senate Russell Office Building, Hon. Byron Dorgan (vice 
chairman of the Committee) presiding.
    Present: Senators Dorgan, Burns, Conrad, Murkowski, and 
Thomas.

  STATEMENT OF HON. BYRON L. DORGAN, U.S. SENATOR FROM NORTH 
       DAKOTA, VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Dorgan. I am going to begin the hearing this 
morning. I am Senator Dorgan. Chairman McCain is at the Capitol 
Building at a hastily called meeting by the leadership on the 
immigration bill that is now before the Senate. So he is going 
to be substantially delayed this morning. He has asked me as 
vice chairman to chair the hearing.
    I want to make an opening statement. I want to invite, 
however, those who are standing at the witness table to take a 
seat. I will introduce all of them. Let me make a statement. We 
are joined today by my colleague, Senator Conrad Burns from 
Montana, whom is going to sit in with us and who I am going to 
recognize for an opening statement as well.
    While Senator Burns is not a member of this committee, he 
is active on Indian issues and is very interested in the 
methamphetamine issue, as are many of our colleagues. Montana, 
North Dakota, Arizona, and South Dakota. So many States with 
Indian populations are discovering that the scourge of 
methamphetamine, which affects our entire country, also has a 
very significant impact on Indian reservations and a claim on 
the resources of the Indian Health Service.
    I want to welcome the witnesses today. Senator McCain and I 
decided to hold this hearing on methamphetamines, Senator 
McCain after hearing some of the stories in the State of 
Arizona about some of the challenges the tribes there were 
facing. I have had a number of meetings in North Dakota, 
perhaps as many as 1 dozen community meetings, including 
discussions with the reservations. We decided to hold this 
hearing to not only call some attention to this issue, but also 
to try to advance opportunities to address it.
    Let me also indicate that later today, Senator McCain and I 
plan to introduce legislation which would amend the recently 
enacted Patriot Act to specifically include tribal governments 
in the methamphetamine reduction grants. As you know, in the 
USA Patriot Act, there was added a methamphetamine initiative 
which I very strongly supported, as did Senator McCain, but the 
omission there was that the tribal governments need to be 
eligible to compete for these grants.
    The legislation we will introduce this afternoon adds 
tribes to the two grant provisions for meth hot spot areas and 
for drug-endangered children, and will clarify tribal 
eligibility for competitive grants to address methamphetamine 
use by pregnant and parenting women offenders. We understand 
that the Judiciary Committee in the Senate has no objection to 
these tribal amendments, so I am hopeful that they will be 
enacted in short order.
    I do want to just indicate that while substance abuse has 
been a chronic problem in many parts of our country, especially 
on Indian reservations, that substance abuse relates to alcohol 
and other drugs. But the new scourge of methamphetamine is 
causing all kinds of new devastating challenges for all of us. 
The drug methamphetamine is so highly addictive and so deadly 
in its impact on people.
    When we sit down with particularly young people on Indian 
reservations and talk through what kinds of things are 
happening there, we discover that meth is playing more and more 
of a role. Most of the evidence suggests that while there is 
some cooking of meth in our country, in my State, for example, 
being able to readily access materials by which you produce 
methamphetamine allows them to find an abandoned farm home or 
virtually anywhere out in a rural area and cook up a batch of 
methamphetamine.
    While that is happening, more, and more we are seeing 
methamphetamine moved into this country from Mexico in very 
substantial quantities. Because it has such a deadly addiction 
rate and is so difficult to shed once addicted, it is causing 
challenges far beyond those of normal substance abuse.
    That is the reason that we have decided to hold these 
hearings to talk about what is happening and what more we can 
do to respond to it.
    Let me call on my colleague, Senator Conrad Burns. Senator 
Burns.

   STATEMENT OF HON. CONRAD BURNS, U.S. SENATOR FROM MONTANA

    Senator Burns. Thank you, Mr. Chairman. And thank you for 
allowing me this privilege of coming before this committee and 
offering a statement. I think everything that you have said, I 
want to associate with. I also want just to thank you for your 
foresight on this challenge that we face in Indian Country.
    The hearing is especially timely.
    You know, these chairs are so low. Do we have anybody out 
there? I can't see over this darn thing here. [Laughter.]
    The first thing I would do, I would saw that off.
    Senator Dorgan. Senator Burns, you are welcome, but you 
can't be giving us all that personal advice.
    Senator Burns. Oh, okay. [Laughter.]
    It is terrible not only basically in this particular 
problem that we are experiencing across the country, but 
especially in Indian country. We acted with some resounding 
bipartisanship to pass the Combat Meth Act just this last 
night. I don't know how many of the folks here had the 
opportunity to see Nightline last night, but they featured the 
Montana Meth Project. I have spoken about that project with a 
number of you, and many of you have seen the compelling ads 
that they are running in Montana to discourage the first time 
use of meth.
    The danger of meth lies in the ability to grab hold of our 
young people after just one hit. It is called the new crystal 
meth. It is deadly. Though I believe that the drug is similar 
to others we have seen, and they try to categorize it that way, 
but I disagree. I have talked with former meth users, their 
parents, the treatment experts who have all explained that the 
change in the brain chemistry and behavior is profound.
    This problem is compounded in Indian country due to a 
number of factors. First, the poverty that we find on our 
reservations is much higher than on non-reservation land. One 
need only look at the Billings, MT area to see this problem. 
The medium household income for families on reservations near 
Billings, MT is around $14,000 a year. These below average 
wages affect a family's ability to provide nutrition, health 
care and housing for their children. Given these hardships, the 
number of people seeking treatment for drug and alcohol abuse 
exceeds the capacity of treatment facilities.
    In addition, treatment for meth addiction often takes place 
off-reservation, meaning that in order to receive help, 
Montana's Indian youth are taken out of the communities that 
they know, and are placed in facilities dominated by nontribal 
members.
    However, this situation represents the best that we can 
offer under the current circumstances. Montana does not have 
the capability to treat meth addicts in the facilities on 
reservations simply because there are no treatment centers 
located there.
    In addition, the vast majority of recovery done without 
recognition of the particular stresses of living on 
reservations also offers another challenge. While the actual 
recovery and detoxification of meth takes years, the need for 
intensive, effective treatment cannot be overstated. The most 
effective means to stem the tide of meth addiction is to focus 
our efforts on prevention.
    In order to have the most positive impact on curtailing 
meth use, prevention efforts should be driven by the needs of 
local communities. They know where the access is and they also 
know where the stress is.
    That is why I have introduced legislation permitting 
communities to apply for meth prevention dollars with a reduced 
match from Indian country and other high meth areas. However, 
we cannot just look at one leg of that three-legged stool. 
Prevention must be coupled with meaningful treatment and 
effective law enforcement.
    As far as the law enforcement is concerned, we have seen 
greater attention paid to meth, but the resources available to 
Indian country have been limited and the nationwide approach 
has been less than cohesive. This fractured approach and the 
lack of resources has a direct effect on the rapid spread of 
meth throughout Indian reservations. With one reservation 
bordering on Canada and three other near it in Montana, the 
cross-border transportation of meth has become a real problem.
    Even meth produced in superlabs in Mexico, as your chairman 
has stated, is now coming into our State. I have heard stories 
about these bad actors. They actually give it away on 
reservations in order to get people hooked on the drug and turn 
them into willing buyers.
    While the Senate's focus on the immigration debate has been 
on illegal immigration, I am pleased to see that some of us are 
taking a closer look at the security risk posed by drug 
smugglers. I am glad that my colleague from Colorado, Senator 
Allard, has offered an amendment which I have cosponsored, 
which will require the President to coordinate with the 
Attorney General and the Secretary of Homeland Security to 
implement cohesive policy to deal with the influx of meth from 
the superlabs in Mexico.
    While we are making progress on the meth issue, we have 
much work left to do. I want to thank everyone and their 
patience in allowing me to be here today. I would also like a 
written submission from my Montana-Wyoming Tribal Leaders 
Council to be included in the record.
    [Referenced document appears in appendix.]
    Senator Burns. And let me say something else. In Montana, 
we were very fortunate in one way. About 3 years ago, a private 
party walked up and said, ``We have to do something about 
this.'' He had just bought a ranch in Montana and now he owns 
two. He wrote a great big check to do a survey, to do focus 
groups, and then to pay marketing people out of San Francisco 
to produce the ads that we see that were shown on television 
last night on Nightline.
    Now, yes, this man has enough money to burn a wet mule, but 
his heart is in the right place. He stepped up to the plate and 
wrote a great big check. He was the largest advertiser in 
Montana television, radio, and newspapers last year when he 
rolled it out.
    He has now come back and is willing to again resurvey the 
State to measure the impact, to redo the ads because now there 
is a follow-up to it and to start this program all over again. 
We want to know what the impact has been. I would tell the 
chairman of this committee that I have talked to middle school 
principals. My people on the reservations say now kids in 
middle school, that is seventh, eighth and ninth grades, are 
talking about it in the halls, when it used to be sort of an 
underground conversation. That means we are making headway, I 
think. When they talk openly about these spots, because they 
are tough and they are very, very vivid.
    And then you talk, I even had a lady come to me in my 
church and she was complaining about them, that they were too 
tough. ``Conrad,'' she said, ``you have to get those things off 
of the air. They are just too vivid; they are too tough. In 
fact, we had to talk to our kids about them.'' [Laughter.]
    Thank you very much for your information.
    So there are a lot of us in this Senate, and I mean I think 
to the men and women who serve here, that doesn't understand 
there is not a neighborhood, there is not an area of this 
country that is not vulnerable to this terrible, terrible thing 
that has been thrust upon us, and we must do battle with it, 
and we must use all the resources we have to prevent use one 
time. It only takes one shot with this crystal meth. They tell 
me it takes 6 or 7 years really for the cure to be permanent.
    So I thank this committee and the chairman and the 
leadership for having the foresight and recognize the problem 
that we have, especially on our reservations, where they have 
limited resources to do this battle.
    Thank you very much.
    Senator Dorgan. Senator Burns, thank you very much for 
joining us and thank you for telling us of the Montana 
experiment. We are anxious to see the results of that.
    Senator Thomas, Senator McCain is at a leadership meeting 
on immigration and has been delayed. Did you have an opening 
statement?
    Senator Thomas. No; thank you. I just want to thank you for 
having this important hearing. This meth problem is difficult 
everywhere, and frightening sometimes particularly on the 
reservations. So we are pleased to have you here.
    I wanted especially to be able to welcome one of our 
witnesses this morning, the U.S. Attorney from Wyoming, Matt 
Mead. We are delighted at the work he is doing and very pleased 
to have him here.
    Thank you.
    Senator Dorgan. Thank you very much. I know that the 
testimony from Mr. Mead will be very helpful to us from the law 
enforcement side.
    The first panel this morning is Pat Ragsdale, director of 
the Bureau of Indian Affairs, [BIA] Department of the Interior, 
Washington, DC. Mr. Ragsdale is accompanied by Christopher 
Chaney, deputy bureau director of the BIA, Office of Law 
Enforcement Services, and also accompanied by Jerry Gidner, 
deputy bureau director of BIA Tribal Services.
    Also with us is Robert McSwain, deputy director, Indian 
Health Service, [IHS] Department of Health and Human Services, 
Rockville, MD. He is accompanied by Jon Perez. Jon Perez is the 
director of the Indian Health Service Division of Behavioral 
Health; and also accompanied by Anthony Dekker, associate 
director of Clinical Services at the Phoenix Indian Medical 
Center.
    And then Matthew Mead, who as our colleague Senator Thomas 
mentioned, is U.S. Attorney, District of Wyoming in Cheyenne, 
WY.
    So why don't we begin with Mr. Ragsdale, director of the 
BIA.

STATEMENT OF WILLIAM P. RAGSDALE, DIRECTOR, BIA, DEPARTMENT OF 
  THE INTERIOR, ACCOMPANIED BY CHRISTOPHER B. CHANEY, DEPUTY 
BUREAU DIRECTOR, BIA, OFFICE OF LAW ENFORCEMENT SERVICES; JERRY 
      GIDNER, DEPUTY BUREAU DIRECTOR, BIA, TRIBAL SERVICES

    Mr. Ragsdale. Good morning, Mr. Chairman and Senators on 
the committee. Thank you for the opportunity to testify on the 
problem of methamphetamine in Indian country. With your 
permission, I will summarize my views and request that my 
written statement be provided for the record.
    Senator Dorgan. Without objection.
    Mr. Ragsdale. Thank you, Mr. Chairman.
    Mr. Chairman, there is no denial that the problem of drug 
and alcohol abuse, and in particular the use and trafficking of 
meth, is having a devastating effect on our Indian communities, 
as well as the surrounding communities. Tribal leaders, police 
officers, and human service providers throughout Indian country 
have described the problem of meth trafficking and use in 
Indian country as epidemic, out of control, in crisis, within 
their respective communities.
    The collective resources of the Federal, tribal and States 
need to be focused to combat this scourge on our communities 
throughout the United States. As you hear from other witnesses 
today, we are beginning to address this problem. While 
prosecution does occur in tribal forums of justice, the tribal 
courts are inhibited by Federal law and limits the sentence and 
fines to less than one year and $5,000 for the conviction in 
tribal court.
    We cited examples in our recent testimony before this 
committee on child abuse. Absolutely essential to addressing 
this problem is cooperative law enforcement between and among 
the tribal, Federal jurisdictions and the States. This includes 
both State, tribal and Federal prosecutors from the various 
jurisdictions.
    Criminals have no respect for jurisdictional boundaries and 
it is imperative that the collective law enforcement and human 
service resource providers work together. Examples of 
cooperative law enforcement will be discussed with the other 
witnesses today.
    Moreover, we also need to have a collective community 
strategy with the tribes, States and the Federal Government 
that provides for community education, prevention, treatment 
and cooperative policing of this epidemic. We look forward to 
working with this Committee and our colleagues in the tribal 
and Federal agencies to address the problem.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. Ragsdale appears in appendix.]
    Senator Dorgan. Mr. Ragsdale, thank you very much.
    Next, we will hear from Robert McSwain, the deputy director 
of the IHS at the Department of HHS. Mr. McSwain, you may 
proceed.

 STATEMENT OF ROBERT McSWAIN, DEPUTY DIRECTOR, IHS, DEPARTMENT 
    OF HEALTH AND HUMAN SERVICES, ACCOMPANIED BY JON PEREZ, 
   DIRECTOR, IHS, DIVISION OF BEHAVIORAL HEALTH; AND ANTHONY 
 DEKKER, ASSOCIATE DIRECTOR, CLINICAL SERVICES, PHOENIX INDIAN 
                         MEDICAL CENTER

    Mr. McSwain. Good morning, Chairman Dorgan and members of 
the committee. I am pleased to be here today to speak on this 
issue. I will summarize my written statement and ask that it be 
entered into the record.
    Today, I am accompanied by Dr. Jon Perez. I think you need 
to know why these two gentlemen are with me. Dr. Perez actually 
heads up the national Behavioral Health Program for the IHS; 
and Dr. Anthony Dekker is actually a clinician who sees meth 
patients on a daily basis. He is also our chief consultant for 
addiction medicine and just recently spoke in the area on this 
particular issue.
    We are pleased to have this opportunity to testify on 
behalf of Secretary Leavitt on the problem of methamphetamine 
use in Indian country. We are here to tell you that the problem 
will need close collaboration among the IHS, its Federal 
partners, tribal governments and communities, and State and 
local governments.
    As you know, Secretary Leavitt has used the Inter-
departmental Council on Native American Affairs to span across 
the department for collaboration and partnerships with the 
department on many Indian issues. We are here today to discuss 
methamphetamine use in Indian country. I guess the situation 
can be described in a single word. It is a crisis.
    We emphasize that this problem is not specific to Indian 
country. A number of you have mentioned that. It affects the 
entire Nation and especially the Upper Midwest and West, and 
particularly in rural areas. Those are the places where our 
Indian communities are located.
    The latest information from the department's Substance 
Abuse and Mental Health Services Administration's national 
survey on drug abuse, published in September 2005, indicates 
that in 2004 1.4 million persons aged 12 or older had used 
methamphetamine in the past year, and 600,000 had used it in 
the past month. The number of methamphetamine users who met 
criteria for illicit drug dependence or abuse in the past 12 
months increased from 164,000 in 2002 to 346,000 in 2004, 
particularly in rural areas, all of which are again places 
where tribal communities exist.
    The highest rates of past year methamphetamine use were 
found among Native Hawaiians and other Pacific Islanders at 2.2 
percent of the population and persons reporting two or more 
races at 1.9 percent. American Indians and Alaska Natives were 
coming in third, at 1.7 percent. When you compare this to the 
general population, whites are .07 percent; .05 percent for 
Hispanics; .02 percent for Asians, and .01 percent for Blacks. 
So 1.7 percent for American Indians and Alaska Natives is high.
    As we have mentioned in a recent hearing on child abuse and 
neglect, the Indian Health Service and tribal programs use its 
RPMS program, which is Resources Patient Management System, to 
track and report on health conditions of American Indians and 
Alaska Natives into the health care system. It is an important 
feature because we are a health care provider, so we count the 
people who actually come in to our system, and that is where 
our numbers are generated.
    We have been tracking the larger family of amphetamine use, 
which the experts here, Dr. Dekker can speak to the larger 
issue, and abuse for some time, and methamphetamine is the 
wicked member of this family.
    Beginning in approximately 2000, marked increases were 
noted in patients presenting for amphetamine-related problems 
and that trend continues today. The data indicates it really is 
spiking. The abuse went from approximately 3,000 contacts in 
2000 to 7,004 contacts in 2005, and increase of almost 2\1/2\ 
times over 5 years.
    The ages most effected, when we start looking at the 
population, spanned mid-adolescence through adults in their 
forties, with a sizable minority found even in their early 
fifties. The ages of the highest usage are found between 15 and 
44, with the highest ages being 25 to 34.
    Finally, this is one of those issues that does not have any 
regard to sex, and that is because males and females are 
affected essentially the same regardless of age.
    How has the IHS responded? Again, it is through 
partnerships. As we have highlighted in our testimony, we have 
had a number of those activities going on over the last 3 
years. We have established collaborative programming with other 
governmental organizations and agencies, from tribal to 
Federal, to coordinate medical, social, educational, and legal 
efforts. These include partners such as SAMHSA, HRSA, CDC, and 
others such as the BIA, Department of Justice and the 
Department of Education.
    We are supporting communities by giving them tools to 
mobilize against the threat by providing them with program 
models and training tools, networks and ongoing consultation. 
Dr. Perez can speak to the program activities in this regard.
    And of course, Dr. Dekker as a clinician can speak to what 
our health care providers are doing to respond to this growing 
problem.
    Special programs are surfacing in our areas in 
collaboration with tribal leaders. One was mentioned in 
Montana, certainly others are mentioned in several locations 
that they are using a series of models. In the matrix models of 
abuse treatment, one area is using a four-step program. This is 
in Montana. Community readiness assessment programs are 
underway in many tribal communities. We are moving into 
telemedicine. I know Senator Dorgan at the last hearing, was 
very interested in telemedicine and how that might be able to 
do outreach.
    In closing, the Indian Health Program will continue to 
provide treatment and prevention services, as we are a health 
care provider, throughout the system, just like we have 
responded to many prevalent health care conditions currently, 
such as diabetes and certainly in the past such as TB.
    The IHS will continue to coordinate and collaborate with 
other Federal, tribal, State, and private agencies to address 
this crisis.
    Finally, we thank the committee for its involvement and 
continued support because a crisis of such proportions requires 
combined resources and unified action.
    Mr. Chairman, that concludes my oral remarks and we would 
be pleased to answer any questions.
    [Prepared statement of Mr. McSwain appears in appendix.]
    Senator Dorgan. Thank you very much, Mr. McSwain.
    You have been accompanied by others here. My understanding 
is they will be available to answer questions as well. Let me 
perhaps ask a couple of questions, then call on my colleague as 
well.
    I am sorry. Thank you very much.
    Matthew Mead, the U.S. Attorney from Wyoming. Mr. Mead, 
thank you for joining us. The addition of a U.S. attorney gives 
us special law enforcement perspective and I understand Wyoming 
has been deeply involved in these issues. So thank you very 
much for joining us.

   STATEMENT OF MATTHEW H. MEAD, U.S. ATTORNEY, DISTRICT OF 
                            WYOMING

    Mr. Mead. Thank you, Mr. Chairman and thank you for 
allowing me to be here this morning.
    I am Matthew Mead, the U.S. Attorney for Wyoming. It is an 
honor to appear before you to provide information about the 
growing methamphetamine problem in Indian country and what the 
Department of Justice is doing to partner with others to 
address it.
    First, Attorney General Gonzales recently announced that 
the Office of Justice Programs would develop new training for 
conducting successful and safe meth investigations specifically 
tailored to tribal law enforcement. The AG was on the Yakima 
Reservation in Washington State just last week addressing this 
and related issues.
    OJP also makes grants available to tribal communities for 
drug courts. Several tribes and tribal organizations have used 
and others are planning to use these drug court grants to 
address meth problems. In addition, DEA and FBI have taken 
steps to address the issue of drug trafficking in Indian 
country. While their activities are summarized in my written 
statement, I will just say here that from my experience, both 
DEA and FBI have done excellent work in this area.
    The Native American Issues Subcommittee, of which I am a 
member, hosted a tribal summit in Idaho last fall. The summit's 
focus was to create strategies to combat meth distribution and 
addiction in Indian country. The result of the summit was a 
best practices document which has been distributed to all U.S. 
Attorneys' offices.
    Two recent cases in Wyoming illustrate what we are doing to 
combat the meth problem on the Wind River Indian Reservation. 
The first case involved the investigation into the Goodman drug 
trafficking organization, a family-run criminal operation based 
on the reservation. It served approximately 20 to 50 drug 
customers per day and distributed at least 1 pound of meth per 
month on the reservation. All together in the Goodman case, 25 
people face Federal criminal drug charges and firearms 
violations; 22 have been convicted, including, Mr. Chairman, a 
tribal court judge. A pervasive drug menace was removed from 
the reservation.
    The second Wyoming case involved the Sagaste-Cruz drug 
trafficking organization. This case illustrates how a ruthless 
business plan developed by a Mexican drug ring targeted Indian 
reservations in the West for meth distribution. The plan was 
hatched after members of the drug ring read a news article in 
the Denver Post. The Denver Post article described how liquor 
stores in a small Nebraska town were profitably selling huge 
amounts of alcohol to Native Americans from the nearby Pine 
Ridge Reservation in South Dakota, a reservation that had a 
major alcoholism problem.
    Members of the Sagaste-Cruz organization surmised that if 
they could get people who were addicted to alcohol and give 
them free samples of meth, they would replace their alcohol 
addiction with a meth addiction. Members of this drug ring 
executed their plan by relocating to communities close to the 
affected reservations, developing romantic relationships with 
Indian women, and introducing these women and others to meth 
with free samples.
    All of the lower level distributors became recreational 
users and then severely addicted. To support their habit, 
customers became dealers and distributors themselves, using 
free samples to recruit other new customers. In May 2005, a 
jury found leader Jesus Martin Sagaste-Cruz of Mexico guilty of 
conspiracy to distribute in excess of 100 pounds of meth. For 
his role, Sagaste-Cruz was sentenced to life in prison.
    Joint task forces and cooperative law enforcement were 
critical to the successful dismantling of both of these 
organizations. On all our drug investigations, working to gain 
and having the support of tribal leaders are keys to the 
success of our efforts. In my written statement, I outline in 
more detail others DOJ successes, including some great work in 
the Eastern District of Oklahoma.
    I commend this committee's interest in the consequences of 
the meth menace on Indian reservations. If I can deliver a 
summary of my message, it is this: Indian country is unique. 
Meth is unique. The two together, meth and Indian country, make 
the current situation doubly challenging.
    As Congress knows, meth is unique in the world of drugs 
because of the extensive collateral damage caused by even a 
single person using meth. Unfortunately, such damage all too 
often falls on children. Indian country is unique because of, 
and this is not an exhaustive list, the size of the 
reservation, wide dispersal of residents, limited numbers of 
law enforcement officers, and the distinctive heritage and 
culture of the Native Americans which is passed from generation 
to generation.
    Each generation provides an opportunity for success, but 
also unfortunately for failure. We cannot afford to fail. This 
is a time when we can and we must be proactive forming joint 
multi-jurisdictional partnerships and working relationships to 
aggressively stop the spread of the poison at the reservations.
    I would be pleased to entertain questions and I would ask 
that my written statement be entered into the record.
    Thank you, Mr. Chairman.
    Senator Dorgan. Without objection, your entire statement 
will be part of the record.
    [Prepared statement of Mr. Mead appears in appendix.]
    Senator Dorgan. Mr. Mead, thank you very much for being 
with us.
    Mr. Thomas will inquire.
    Senator Thomas. Thank you.
    Thank you, gentlemen. I appreciate it very much.
    I guess I have a general question that perhaps all three of 
you might respond to. Meth is a general problem. We have it 
everywhere. We are particularly focused here today of course on 
the impact it has on reservations and on Indian country. What 
would you say is unique and different about dealing with the 
reservation problem as opposed to the general meth problem? 
What are the obstacles that make it more difficult, or at least 
different?
    Matt, would you comment?
    Mr. Mead. Yes, Senator Thomas; thank you for the question.
    I think there are a number of factors that make it unique. 
First, as I said in my statement, meth is unique in and of 
itself because of the collateral damage it causes. A single 
user can cause damage because as you know it is associated with 
extreme violence, child abuse, and a number of other problems.
    What makes it extra unique on Indian reservations is this: 
Indian reservations, at least in Wind River, for example, can 
often be very close communities. It is difficult, and pressure 
is put on members of a family when they would be asked to 
cooperate against one another. That is understandable. It is 
also difficult because, say, in the inner city in America, 
there are opportunities to bring in an outside drug 
investigator to do undercover buys. That is not as easy on 
Indian reservations because many of them are small [population 
wise] and people know one another.
    I think the other thing that is unique on Indian 
reservations is, for example, as I say in my written statement, 
the ratio on reservations of law enforcement to citizens is 
much lower than it is outside of reservations. This causes 
difficulty for BIA law enforcement, tribal law enforcement to 
address this problem without having a joint relationship with 
DEA and other law enforcement agencies.
    Those, Senator, would be a few of my examples of the 
uniqueness, both of meth and of the reservation.
    Mr. Ragsdale. Thank you, Senator. I would agree with the 
U.S. Attorney's analysis. I would also add that the vast 
territories that Indian police officers have to cover makes it 
more difficult. We have about one-third or one-half, as 
compared to rural law enforcement in America in terms of police 
resources. I think that is why I focused in my testimony on 
cooperative policing is because it is absolutely essential that 
the various jurisdictions work together to combat the problem.
    Indian country is unique, in my opinion. I spent about 7 
years as a police officer of the Cherokee Nation in Eastern 
Oklahoma. The Indian clients and beneficiaries that we work 
with are probably going to be more apt to be trusting and 
cooperative with the Indian police officers than they are from 
people that they don't know from other communities. I think an 
essential element to policing in Indian country is that the 
police resources that we have be tied with the Federal and 
State resources that are available, because we have various 
jurisdictions that may have prosecutive responsibility for 
crimes on Indian property.
    Senator Thomas. That is interesting. I would like your 
response. In the regular communities, you have local police, 
you have State police, you have drug enforcement and so on. Are 
those same functions going on on the reservation as much as 
they are in a regular community?
    Mr. Ragsdale. I would say that they are going on in the 
Indian communities to the same extent, but with less resources 
to operate.
    Senator Thomas. I see. Okay.
    Sir?
    Mr. McSwain. Senator Thomas, it is a great question simply 
because when we talk about where we are located, certainly the 
reservations are located in rural America, so there are all the 
challenges that go to access and resources available. Clearly, 
it is getting the right people there. If you don't mind, I 
would like to have Dr. Dekker expand on that. He had a chance 
to actually deal with this particular question some time ago.
    Mr. Dekker. Thank you, Senator Thomas.
    I see in addition to what you said, which I think is very 
real, three other factors. One is that there are great 
distances for people on reservations to travel to receive 
services. The geography alone is a significant challenge. I 
have patients who travel 3 and 4 hours to see me for addiction 
medicine consultation.
    The second thing is that there is the intimidation factor 
because of inadequate or at least available interdiction 
services is significant. It is the huge distances that people 
have to travel that are in law enforcement, and because of 
those great distances, they can't supervise large areas 
adequately. I have many patients who come in, parents who come 
in devastated because even though they know that their kids are 
at risk and they are trying to protect them, that if they talk, 
they feel intimidated and they feel that harm may come to them.
    The last issue I think that is critical is that activities 
for young people on reservations unfortunately as not as 
available as in other situations. Many times, kids get involved 
in activities that they shouldn't be involved in because there 
is a perception at least that they can't do other things.
    Senator Thomas. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Ragsdale. Mr. Chairman, if I could add just one more 
anecdotal piece of information.
    Senator Dorgan. Yes?
    Mr. Ragsdale. I was told about 1 year ago that our police 
officers were actually intimidated on some reservations by the 
criminal element, particularly the drug trafficking element, 
just because of the magnitude of the problem. As a former 
police officer, I found that pretty hard to believe. So I had 
an opportunity to talk to several police officers working on 
these particular reservations, none of whom were cowards. They 
freely admitted that they were intimidated; that the magnitude 
of drug trafficking and illegal immigration into Indian country 
in some areas had overcome their ability to provide proper 
response.
    Senator Dorgan. Senator Burns.
    Senator Burns. I thank you.
    I have one question, I guess. We fight very hard for HIDTA 
and Byrne funds here. They want to combine them. They want to 
change them. But the establishment of task forces using State, 
Federal, county and municipal law enforcement, they have set up 
these task forces in Montana. We have been fairly successful in 
really shutting down our labs. And really, with the HIDTA funds 
in the high intensity traffic areas, we have been fairly 
successful in shutting those down.
    Do the law enforcement people on the reservations, and I 
don't now why I didn't ask this before, but when you were 
talking about working together on this thing, especially, Mr. 
Mead, in Wyoming, we face similar situations, although we have 
the Canadian border to deal with. Are the law enforcement 
people on the reservations, do they work with those task forces 
that are created under HIDTA or the Byrnes grants?
    Mr. Mead. Thank you for the question, Senator Burns. I am 
pleased to answer this one because it is one of the ways that 
we have had success in the District of Wyoming.
    I went to tribal leaders, both of our joint business 
councils, and told them what I thought the problem was. They 
told me what they thought the problem was. I asked permission, 
and what I wanted was permission for DEA to cross-designate BIA 
officers. I wanted permission for DEA to cross-designate our 
State task force officers, very similar to what you have in 
Montana so that we have seamless law enforcement, because as 
was mentioned earlier, these drug dealers don't recognize 
geographical or political boundaries whatsoever. If we are 
hindered by that, we are going to have one hand tied behind our 
back.
    So yes, in Wyoming what we did is we got permission from 
the tribes. We had a BIA officer, who is very good, actually 
co-locate with our State task force team in the area, along 
with DEA, along with a deputy from the sheriff's department and 
a police officer. This, in my mind, is the only way to go about 
this, and that is for the reason that on each reservation, you 
may say, well, it is just a few drugs here. They are selling 
one gram/one gram. But, this is limited information. You are 
thinking in a vacuum.
    Whereas, if you enjoin these other people, they may say, 
hey, we know the same group is selling it, and DEA, being 
involved, will say, hey, this is a regional problem.
    So that is what we have done. So the short answer to your 
question, sir, is yes, we have them working with these teams, 
and I think that is a key to success.
    Senator Burns. Well, you know, when the director said when 
you cross jurisdiction lines, when we first set those up, I 
will tell you, we had a little turf problem. Everybody wants to 
protect their turf and it is a normal thing in the 
bureaucracies, and that is one of the things we fight every 
day. But I will tell you, our U.S. marshal in Montana has been 
a real driving effect, and our U.S. attorney there, Mr. Mercer, 
has been the real drive in this. Whenever the director brings 
up jurisdictions, and I know they are sometimes hard to 
penetrate, but we found that once there was trust between the 
jurisdictions, we became very effective in this fight.
    I had never thought about how we cross jurisdictions on our 
reservations. I have seven in Montana. I am going to get a hold 
of Bill and we will work that out. But the HIDTA, I don't think 
the Senate really has taken a look and seen the effect of HIDTA 
and the Byrnes grants and to set up those task forces, because 
we have seen them work very effectively in Montana. But once 
you break down those barriers, we have quite an effect.
    I just want to congratulate you on what you have done in 
Wyoming. I will have to follow up and see if we have done as 
well in Montana.
    Mr. Mead. Thank you, Senator.
    Senator Burns. That is the only question I had. It kind of 
follows on what Senator Thomas had to say about we have to give 
them the tools, and we can make some headway.
    Senator Thomas. Do you support Byrnes grants?
    Senator Burns. Yes; but he spells it different.
    Senator Dorgan. Thank you very much.
    Yes?
    Mr. Ragsdale. I would just like to add to say I would 
totally agree with the Senator and the U.S. Attorney. I would 
also like to point out that Congress provided us with a 
mechanism for cooperative law enforcement in the form of the 
1990 Indian Law Enforcement Reform Act that allows the tribes, 
the BIA, State jurisdictions, and Federal agencies to enter 
into cooperative law enforcement agreements, which has been 
used extensively in the State of Oklahoma and other places for 
the type of focus that we need, without anybody giving away 
their criminal jurisdiction authority or their prosecutive 
prerogatives that the State, tribal and Federal prosecutors 
have.
    Senator Dorgan. Mr. Mead, in your enforcement actions, how 
prevalent is it that they are cooking methamphetamine for 
distribution in Wyoming, versus importing it? What I am hearing 
is much of it is coming from Mexico. But we in North Dakota had 
some hundreds of examples of people creating labs and cooking 
their own meth. Now, I am told that it is more likely the meth 
is coming from Mexico. What is your experience in Wyoming?
    Mr. Mead. Senator, my experience would be consistent with 
what you said in your opening statement. I think DEA's numbers 
are roughly 80 percent of the meth that is consumed in this 
country comes from what we call ``super labs.'' Some of those 
we see in California. I think a majority of them, according to 
DEA, would be in Mexico.
    We do see what we call the small toxic labs, or ``mom and 
pop'' labs, but their contribution, I guess, to the amount of 
meth is minimal. I think DEA's number if 20 percent. We take 
them seriously, obviously, because these are the things that 
you hear about in a household or a hotel room that you or I may 
be going into unwittingly after it was used as a lab or is 
still contaminated. It causes fires and of course when children 
are in those environments, it is deeply concerning regardless 
of the amount of meth that is produced in that home.
    Senator Dorgan. Mr. McSwain, I wanted to mention that Dr. 
Perez came to Bismarck, ND to the hearing that we held on 
Indian teen suicides. There is I think some relationship 
between substance abuse and other very delicate issues that we 
have had some hearings on both here in Washington and also the 
hearing that I held in Bismarck, ND.
    You indicated that you feel it is a crisis. Mr. Ragsdale 
feels that the meth issue is a crisis. Meth is a deadly 
addictive drug, much more addictive than most other drugs. It 
affects the brain in different ways. One of my concerns is that 
those who are addicted have precious few opportunities for 
treatment. What kind of treatment does a Native American youth 
or a Native American addicted user, what kind of treatment 
facilities and what kind of treatment programs are available to 
them, and in what quantity?
    Mr. Perez. You have me on the microphone already? We have 
multiple levels of care and multiple means of delivering it, 
but it is stressed. Let me describe it this way. 
Methamphetamine the way it affects us clinically and 
individually is a debilitating disease that can hit you like 
that. But it is a metastatic social disease. What I mean by 
that is I very much liken it to a cancer. It can start in a 
very small circumscribed place. If you can get it and pull it 
out, you are okay. If you leave it for any length of time, you 
will see the spread. That is what we are starting to see.
    So when you are asking about treatment, there are really 
three levels of treatment as far as I am concerned. One is the 
direct clinical intervention. What we have on-reservation, our 
primary reservation units are small clinical counseling, 
substance abuse programs. They are staffed, three to four 
people, depending upon the size of the reservation. That is the 
first line of defense when we are talking about the actual 
substance abuse.
    Connected to that, we also have pretty significant physical 
responses. We have the withdrawals. We have the acute medical 
effects of the drug. There we have our clinics, clinic's 
emergency rooms. It is not unusual for us to have a first 
contact be in an emergency room situation. So we have those for 
the immediate, when you come through the door.
    Then beyond that, and I will talk about kids, for example. 
We have 11 federally funded youth regional treatment centers 
that approximately cover one regional area. We have 12 regional 
areas. There is residential treatment there. There is also 
residential treatment in the State and county systems.
    Senator Dorgan. What does that mean, there is ``residential 
treatment?'' You started by saying this was a stressed system. 
When you say ``residential treatment,'' someone is heavily 
addicted, my understanding is you can't put them in for 30 days 
or even 60 days, expect them to come out having shed their 
addiction and being well.
    Mr. Perez. That is correct.
    Senator Dorgan. My understanding is it takes 6 months, in 
many cases 1 year or 15 months to shed yourself of the deadly 
addiction of meth. So how many beds are available? What kind of 
circumstance exists for someone who is addicted in most of our 
regions?
    Mr. Perez. Nationally in terms of our regional treatment 
centers, add them all together, we have about 300 beds 
nationally.
    Senator Dorgan. What is the need?
    Mr. Perez. If I take the figures from 2005, and we are 
talking about 7,004, those are actual contacts, actual 
patients, unduplicated patients, we are talking about 2,900. Of 
those that would require inpatient, we are talking about I 
would say conservatively about 500, and we extrapolate that 
out, so we were starting with 500 and we have 300 beds, that is 
for youth, and then the others are going to be going into the 
State and other systems.
    What we also do, too, is not simply because we are talking 
about the Federal system, but we also have I believe about 47 
or 48 tribal and urban residential programs, for example NARA 
in Portland and Friendship House in San Francisco, and Rainbow 
Center in Arizona. So there are many of those.
    Now, if I put all of those together in terms of the system 
of care, is it stressed? It absolutely is. Are we triaging how 
we are dealing with it? Absolutely. It is life and limb first.
    Was that responsive to your question?
    Senator Dorgan. Yes; my observation about substance abuse, 
starting especially with alcoholism, which is a very serious 
problem as well, is that there are just a minuscule number of 
treatment positions available for the need that exists, just 
minuscule. I am talking about, now, in-residence treatment. My 
guess is, and I would like you, if you would, to send us some 
additional and more detailed information about the number of 
in-residence treatment opportunities for those who are addicted 
to meth. My guess is that we have the same kind of shortfall.
    I would observe again, from a law enforcement standpoint, 
Mr. Ragsdale, you talked about the combined law enforcement 
efforts, which are good. And Mr. Mead, you talked about what 
you all are doing, and that is all very impressive. But you I 
am sure would agree that if you have somebody that is addicted, 
hopelessly addicted, and they shed that addiction, don't have 
the capability to shed that addiction, they are in and out of 
the system and back out using again.
    So we have to find ways on the treatment side to complement 
the enforcement side. If we fail to do that, we will have 
failed to have dealt with the entire problem, in my judgment.
    You all have traveled, especially from Wyoming, a lengthy 
distance. I guess Mr. Ragsdale, you and Mr. McSwain have not 
traveled as far this morning, but we appreciate always your 
coming to the Committee to give us your testimony. Mr. Mead, 
thank you for traveling from Wyoming to give us your 
perspective as a U.S. attorney on these issues. We very much 
appreciate that.
    Mr. Mead. Glad to be here. Thank you, sir.
    Senator Dorgan. If you wish to submit further information, 
and we will keep the record open in the event that we wish to 
submit further questions that you might offer us for the 
record. We would like to make available to you the opportunity 
to submit additional views as well.
    Thank you to all on this panel for being here today.
    Next, we would like to call the second panel, Kathleen 
Wesley-Kitcheyan, chairwoman of San Carlos Apache Tribe, San 
Carlos, AZ; Jefferson Keel, first vice president, National 
Congress of American Indians, and Lieutenant Governor of the 
Chickasaw Nation, Washington, DC; Gary Edwards, chief executive 
officer, National Native American Law Enforcement Association; 
and Karrie Azure, United Tribes Multi-Tribal Indian Drug and 
Alcohol Initiative at the United Tribes Technical College in 
Bismarck, ND.
    If all of those witnesses would step forward and take your 
seats at the witness table, I would appreciate it.
    Kathleen Wesley-Kitcheyan, I hope I am saying that name 
correctly. I think I tried at another meeting some weeks ago. 
Thank you very much for being with us. You are the chairwoman 
of the San Carlos Apache Tribe, San Carlos, AZ. We have asked 
that all of you summarize your testimony in the 5 minutes 
allotted. We have your entire written testimony and will make 
that in all cases a part of the permanent record.
    Ms. Kitcheyan, thank you very much for being with us. Why 
don't you proceed?

STATEMENT OF KATHLEEN WESLEY-KITCHEYEN, CHAIRWOMAN, SAN CARLOS 
                          APACHE TRIBE

    Ms. Wesley-Kitcheyan. Thank you very much.
    Vice Chairman Dorgan and other members of the hearing, 
please also give my best to Senator McCain. As you said, I am 
Kathy Wesley-Kitcheyan. I am the chairwoman of the San Carlos 
Apache Tribe.
    Today is not a good day because I come here with a very 
heavy heart, a heavy heart because I have to tell you about 
things on my reservation, my home that is not very positive. It 
is like airing our family's dirty laundry.
    Like other reservations, the meth problem on my reservation 
is quickly reaching epidemic proportions. My people are in pain 
and are suffering from meth. As I stated in my testimony in 
your oversight hearing on the fiscal year 2007 budget, Indian 
country is under attack. We must aggressively address this 
problem, starting with the budget cycle.
    At that hearing, the issue of meth kept coming up. I 
strongly back NCAI President Joe Garcia's call to action. I 
believe that this hearing will help us take the offensive on 
fighting meth.
    Also, I believe it would be helpful if the committee could 
hold field hearings in Indian country on this issue so that 
members could see for themselves the conditions that we must 
grapple with every day due to meth.
    At San Carlos, we are doing our best, but have not been 
able to properly contain the meth problem, given how quickly it 
has grown and how profound it has become. It is shattering 
families, endangering our children, and threatening our 
cultural and spiritual lives.
    We talked about alcoholism this morning. I had to sit down 
my 22 year old son about 1 year ago and tell him that the use 
of alcohol was bad because 33 member of his dad's family and my 
family have died or been in car accidents due to alcoholism. I 
have 55 grandchildren from numerous nieces and nephews, and 
every day I worry about them.
    I lost one about 2 years ago on the Tohono O'odham 
Reservation, a rodeo champion. Excuse me. He won over 26 
buckles, over 6 saddles. The wrong choices cost him his life. 
He was doing drugs, drinking, and was engaged in human 
smuggling because of the lack of employment.
    Two months ago, a baby was born addicted to meth with a 
deformed heart and congenital heart problems. Almost 5 months 
ago, a baby was born addicted to meth with legs that are numb 
and can never be used.
    At the end of 2005, a 9-year old meth user was brought to 
the San Carlos Hospital with hallucinations and violent 
behavior. This is the youngest user that we have found, but we 
are concerned that kids even younger are using meth. About 30 
days ago, a young pregnant woman on meth was arrested. While in 
jail, she went into premature labor and delivered a baby that 
died.
    Last month, a 22-year old meth user tried to commit suicide 
by stabbing himself with a 10-inch knife. He lived and the 
tribe is trying to find behavior counseling and detox services 
for him, but it is extremely costly, or we are told that it is 
not available. Also, it is difficult to find a facility that 
accommodates native cultural and spiritual needs; 2 years ago, 
a mother on meth stabbed her little boy to death because she 
thought the child was the devil and was possessed. More 
recently, a 22-year old male hung himself while using meth.
    I could go on, but it is too heartbreaking. My community is 
small and we all know each other. These tragic events 
dramatically affect my entire community and have ripple effects 
that harm and scar our most innocent citizens, our newborns and 
children. In fact, as I left the reservation, there are some 
mixed feelings about providing this testimony. There are stark 
statistics from the San Carlos Reservation due to meth. In 
2004, there were 101 suicide attempts, with 2 attempts 
resulting in death. Some of the suicide attempts were directly 
related to the abuse of meth. And the past 10 suicide attempts, 
8 of the individuals were using meth.
    In 2004, 64 babies out of 256 were born to San Carlos 
Apache tribal members addicted to meth. In 2005, the number of 
babies born addicted to meth was even higher. In routine urine 
drug screenings at the San Carlos emergency room in 2005, 25 
percent of the patients tested positive for meth. Last year, 
there were about 500 reports of child neglect or abuse reported 
to the tribe's child protective services. About 80 percent of 
these cases involved alcohol or drug use such as meth by the 
parent.
    In the past 12 months, tribal health officials at our 
wellness center have received over 150 referrals for meth 
treatment. Like our health care and social services personnel, 
the San Carlos police department is overwhelmed by the meth 
problem. Most of the meth is trafficked in from Mexico. Meth, 
other drugs, gangs and guns on the reservation have caused 
violence to escalate.
    The police department is shortstaffed and lacks the 
equipment and weaponry needed to properly investigate meth 
crimes or make arrests. Every year, the tribe has a shortfall 
of about $1 million in law enforcement. Due to funding 
constraints, there are only two to five officers on duty at any 
given time to cover 1.8 million acres. Even with limited 
staffing, the police department handled 20,590 offenses in 
2004. We commend the administration, though, and Congress for 
its efforts to finally increase funding for Indian country law 
enforcement. We hope that these efforts can continue. For too 
long, the problem has been neglected. We also thank Chris 
Chaney for his efforts.
    To combat the meth problem at the tribal level, we have 
taken some decisive action. Every program and agency within the 
tribe is working together on this problem. The tribe's goal is 
to make it clear that meth is not tolerated and that the tribe 
takes swift and severe action against meth perpetrators. The 
tribe recently held a meth forum with mandatory attendance by 
all tribal programs. At the forum, we created a prevention 
coalition to develop and implement strategies to stop meth.
    The tribe has launched a media campaign to educate the 
community about meth and is holding community education forums 
on meth. Further, the tribe has instituted a drug testing 
policy for all employees, which as you probably understand, is 
not very popular. The tribe has revised its legal code to 
criminalize meth. Also over 10 months ago, the tribe and the 
U.S. Attorney for Arizona, Paul Charlton, began quarterly 
meetings to discuss the meth problem. Recently, the U.S. 
Attorney announced a policy of zero tolerance for meth dealers. 
Over the past 2 years, the U.S. Attorney's Office has gotten 
several convictions or guilty pleas from meth dealers on the 
reservation. The tribe strongly supports these prosecutions and 
convictions because they have a definite deterrent effect.
    Furthermore, the tribe has partnered with the FBI, DEA, 
ATF, ICE, and the BIA. These agencies are actively 
collaborating with us. These relationships are yielding many 
positive results, including specialized training, increased 
investigation and arrests, and increased resources.
    Also, the Arizona State Highway Patrol is back on our 
reservation patrolling it at our invitation. We hope that 
through these partnerships we can stop meth on the front end 
instead of waiting until there is violent crime for meth.
    There are many good people on the San Carlos Apache 
Reservation. Many of our children have dreams and hopes just 
like all American children, for a better life. We also still 
have our language. We still do our dances and practice our 
traditional ways. We have the great spirit of our ancestors 
alive in us, but I am afraid that the spirit of our ancestors 
will die if we continue to let meth prevail. We still have a 
long way to go.
    Thank you very much, Senator Dorgan, for your efforts on 
this problem. Thanks.
    [Prepared statement of Ms. Wesley-Kitcheyan appears in 
appendix.]
    Senator Dorgan. Tribal Chairwoman Wesley-Kitcheyan, thank 
you very much for being with us.
    How many enrolled members does your tribe have?
    Ms. Wesley-Kitcheyan. We have approximately 13,000.
    Senator Dorgan. Thank you.
    Next, Jefferson Keel, first vice president of the National 
Congress of American Indians, and Lieutenant Governor of the 
Chickasaw Nation. Mr. Keel, thank you very much for being with 
us.

  STATEMENT OF JEFFERSON KEEL, FIRST VICE PRESIDENT, NATIONAL 
 CONGRESS OF AMERICAN INDIANS, AND LIEUTENANT GOVERNOR OF THE 
                        CHICKASAW NATION

    Mr. Keel. Thank you, Mr. Chairman, and thank you for the 
opportunity to speak to you. I am very honored to be here on 
behalf of the National Congress of American Indians to present 
this testimony. I will summarize my comments, as you asked. We 
have provided written testimony.
    I would like to thank Chairman McCain for hearing and 
responding to our calls for comprehensive discussion and to the 
other Senators who have made opening statements. I greatly 
appreciate that.
    As has been stated earlier, Indian reservations have become 
a target for methamphetamine drug traffickers. Our children and 
young adults are at high risk and many of our communities are 
being severely depleted in tackling this epidemic.
    My written testimony covers the breadth of the problem in 
Indian country, but what I hope to share this morning is what 
Indian country is doing and where we need additional help. We 
recognize the crisis and we also have a vision for addressing 
the crisis: Strong tribal law enforcement against the drug 
traffickers, and an even greater focus on prevention and 
treatment that strengthens tribal cultural values in our 
children and our young people. Our tribes have found that 
integrating traditional values is essential to our efforts to 
fight drugs.
    Some examples. The traditional children's game of Cherokee 
marbles has been passed down for generations, but at least in 
the past 2 years it has taken on a new meaning. At public 
elementary and middle schools across 14 counties in Oklahoma, a 
demonstration program called ``Use Your Marbles: Don't Use 
Methamphetamine'' sets up the game as a strategy to prevent the 
use of drugs. It is an innovative method to introduce our 
children who are being affected in greater numbers to how to 
combat the use of methamphetamines, the use of drugs.
    Treatment and wellness programs like White Bison and the 
One Sky Center in Oregon integrate traditional ideals into all 
aspects of their treatment and counseling programs. Even our 
law enforcement has turned to tradition. Tribes such as the 
Lummi Nation are using banishment to completely remove drug 
dealers from the community. Other tribes like the Yavapai 
Apache Tribe of Arizona are establishing alternative drug and 
family courts to address issues of addiction.
    We are increasing self-sufficiency. Our tribes and tribal 
organizations are educating themselves about methamphetamines. 
The National American Indian Housing Council has developed a 
national curriculum for the identification and cleanup of 
methamphetamine labs. They have completed 50 trainings in 
Indian country in just the past year, and the training has led 
directly to law enforcement against a number of operations. The 
training also allows tribes to save costs by conducting their 
own cleanups. We are working together cooperatively.
    As mentioned earlier this morning, one of the most 
successful strategies has been for Indian country law 
enforcement to work through task forces and cooperative 
agreements. This was certainly true for my own community, where 
the Chickasaw Nation's police force, the Lighthorse Police, 
worked together with a multi-agency Federal, State and tribal 
drug task force. We participated in one of the largest 
methamphetamine busts in Oklahoma and Texas region against the 
Satan's Disciples, a violent street gang from Chicago.
    There are hundreds of cooperative law enforcement 
agreements in Indian country, but there are also places where 
the cooperation is not as good. From our perspective, the key 
to cooperation is that all agencies respect the tribal 
community. For that, we need to build tribal capacity. With 
tribal law enforcement that is better trained, equipped and 
adequately staffed, we will have more respect and cooperation 
with outside law enforcement agencies.
    I come to you today with a list of ideas that can help our 
communities address this position. First, we hope to see 
continued White House involvement in a coordinating role for 
the Federal agencies, with NCAI and tribal leaders serving on 
the tribal side of the partnership. In the upcoming 
reauthorization of the Office of National Drug Control Policy, 
Congress can create a permanent Deputy Director for Indian 
country.
    Second, we also call on all Federal agencies who are 
involved in fighting drugs, such as the Drug Enforcement 
Administration, to create a permanent link for American Indian 
and Alaska Native tribal governments.
    Third, Indian country needs increased resources in the 
agencies with responsibility to support the tribes. We need to 
renew and expand the COPS program, the Community Oriented 
Policing Service. A total of 759 law enforcement positions in 
Indian country have expired or will expire between 2004 and 
2006. The COPS program has been a huge benefit for Indian 
country policing and we need permanent funding to sustain these 
positions. NCAI urges either the extension of the COPS grants 
or a permanent new program to replace COPS.
    We also urge a 10-percent increase in law enforcement 
funding in the Departments of the Interior and Justice, and 
that really isn't enough. That is just a drop in the bucket, 
but it is a start. We must prevent the IHS funding from falling 
further behind. Most drug treatment and prevention programs in 
Indian country are funded through the IHS. As you heard this 
morning, I am not sure where Dr. Perez got his numbers. He said 
the need was about 500 beds for residential treatment. I think 
those are just the ones that are reported that actually go 
through the formal system. I believe that the number is far, 
far higher.
    At a time when we need to be expanding these services, the 
IHS funding has not kept pace with inflation or population 
growth. It is vital that the IHS receive at least increases to 
maintain current services, and that is approximately $440 
million over the fiscal year 2006 level.
    Tribes should also be included in all health related 
methamphetamine grants outside of HHS. I was pleased to hear 
this morning that the Senate has adopted legislation to address 
this issue. We greatly appreciate that.
    We need increased funding for tribal courts. Tribal courts 
are dealing with many first time drug offenders and are trying 
to put them back on track. The caseloads are overwhelming and 
they need the funds to function properly so that the courthouse 
door is not a revolving door, but a one way door back to a 
healthy life.
    We need to maintain the National American Indian Housing 
Council's methamphetamine training funds, and increase funds to 
the Department of Justice's Indian Alcohol and Substance Abuse 
Prevention Program and SAMHSA grants.
    In addition to the requested additional funding for both 
behavioral and physical health services at the IHS, our health 
systems need to be modernized to better address prevention and 
treatment. We call on Congress to pass the Indian Health Care 
Improvement Act this year, this session.
    There are also several relatively simple structural changes 
that can address the perceptions of Indian country that have 
encouraged external drug traffickers to target our communities. 
We need to clarify the status of tribal police officers 
participating in Federal tribal drug task forces to ensure that 
they are treated as Federal officers.
    Second, currently the U.S. Sentencing Commission guidelines 
do not give the same respect to prior tribal court convictions 
that it gives to prior State convictions in calculating a 
defendant's criminal history.
    Finally, tribal sentencing authority is limited to 1 year 
under the Indian Civil Rights Act. This timeframe may limit the 
ability of tribal courts to mandate treatment programs that 
last longer than 1 year.
    In conclusion, I would like to thank you, Mr. Chairman, and 
the other Senators and this committee for holding this hearing 
today. We look forward to working on this issue with all of our 
tribal communities and the committee. I will be happy to answer 
any questions.
    Thank you again.
    [Prepared statement of Mr. Keel appears in appendix.]
    Senator Dorgan. Mr. Keel, thank you very much.
    We have been joined by our colleague from Alaska. Would you 
wish to make any statement at this point, or should we hear the 
remaining two witnesses?
    Senator Murkowski. Mr. Chairman, I would prefer that we 
keep on track. I apologize for being late, but this is 
something that I am extremely interested in. I would like to 
hear the testimony of the witnesses, and then if I could have 
an opportunity to comment. Thank you.
    Senator Dorgan. All right. I thank Senator Murkowski.
    We will hear the final two witnesses. Gary Edwards is the 
chief executive officer of the National Native American Law 
Enforcement Association. Mr. Edwards, you may proceed. As I 
indicated, if you will summarize your statement within the five 
minutes allotted, we would appreciate it.

 STATEMENT OF GARY EDWARDS, CHIEF EXECUTIVE OFFICER, NATIONAL 
          NATIVE AMERICAN LAW ENFORCEMENT ASSOCIATION

    Mr. Edwards. Mr. Chairman, distinguished members of the 
committee, distinguished panel, tribal elders and leaders, I am 
Gary Edwards, the chief executive officer of the National 
Native American Law Enforcement Association. I have prepared a 
written statement and ask that it be entered into the record.
    Senator Dorgan. Without objection.
    Mr. Edwards. It has become common knowledge that 
methamphetamine is a nationwide problem that is affecting both 
tribal and nontribal communities. However, it may not be common 
knowledge that meth appears to be a bigger problem for tribal 
communities than for nontribal communities.
    There are at least four reasons for the differences. One 
reason is the correlation between meth and alcoholism. 
Unfortunately, the ethnic group with one of the highest rates 
of alcohol addictions is Native Americans. Accordingly, Native 
Americans and their tribal communities are and have been 
targets of meth distributors.
    A second reason pertains to the financial conditions of 
most tribal communities. Most tribal communities rank or at the 
near bottom of most financial parameters.
    A third reason pertains to the geography of many tribes. 
More particularly, research suggests that the majority of meth 
distributed in tribal communities is smuggled through the U.S. 
borders with Mexico and Canada. In a recent tribal border 
security pilot program, NNALEA and its partners identified 41 
tribes who were either on or located within 100 miles of United 
States borders with Mexico and Canada. The participating tribes 
of the Tribal Border Security Pilot Project, the majority of 
the participating tribes reported that they had encountered 
drug smuggling across their respective borders.
    Undoubtedly, these tribal communities, among others, are 
and have been prime targets for the distribution of meth by 
smuggling cartels.
    A fourth reason pertains to the numerous jurisdictional 
issues that confront tribes that may not confront nontribal 
communities. Examples are such as Public Law 280 and outdated 
tribal codes wherein meth is not specifically identified as a 
crime.
    We must be organized in our approach in fighting this war 
against meth. The National Native American Law Enforcement 
Association agrees with the current administration that this 
war against meth should focus on the following areas: 
Prevention and treatment; law enforcement; education; and 
management of meth's unique consequences.
    In addition, NNALEA believes that an Indian country drug 
czar should be appointed to specifically assist the national 
drug czar in the war against meth. This Indian country drug 
czar would be tasked through the BIA Office of Law Enforcement 
Services for coordination. Having this drug czar alone would 
not make the difference that we need in fighting this war 
today. We need additional funding, additional funding for the 
BuIA Office of Law Enforcement Services so that they can 
provide law enforcement support, detention facilities, staffing 
and training, and a 5-year strategic plan so therefore our 
funding should be approached on a 5-year strategic basis. We 
have entered within our testimony specific amounts that we 
think would be most helpful in these areas.
    NNALEA also recommends a funding increase for the IHS to 
implement their plans and strategies for Indian country across 
a five year strategic plan.
    As we look at the meth problems, tribes are also affected 
by broader processes such as homeland security issues, global 
warming, population growth, and globalization. Meth is both a 
problem in itself and a symptom of broader stress for Indian 
country. The U.S. Patriot Act, additional funding and an Indian 
country drug czar are weapons in the Indian country war against 
meth, as well as the fight against broader stress issues for 
tribes.
    However, winning the Indian country war against meth will 
be achieved by tribal leaders, tribal councils, tribal elders 
and tribal communities that carry the war lance symbolizing 
that Indian people will not tolerate drug use.
    In closing, I think that the words of the great Sioux chief 
are appropriate here. The great Sioux Chief Sitting Bull said, 
``Let us put our minds together and see what kind of future we 
can build for our children. Hope is strong medicine. Let's us 
keep hope alive.''
    I am happy to answer any questions you may have.
    [Prepared statement of Mr. Edwards appears in appendix.]
    Senator Dorgan. Mr. Edwards, thank you very much for your 
testimony today.
    Finally on this panel we have Karrie Azure. Karrie Azure is 
a tribal judge on the Turtle Mountain Chippewa lands in North 
Dakota. She is appearing here on behalf of the United Tribes 
Multi-Tribal Indian Drug and Alcohol Initiative. Judge Azure, 
thank you very much for being with us, and you may proceed.

 STATEMENT OF KARRIE AZURE, UNITED TRIBES MULTI-TRIBAL INDIAN 
  DRUG AND ALCOHOL INITIATIVE, UNITED TRIBES TECHNICAL COLLEGE

    Ms. Azure. Thank you very much, Mr. Vice Chairman.
    It is a great honor to be testifying before this committee 
today on this most pressing issue in Indian country. As stated, 
I am a member of the Turtle Mountain Band of Chippewa Indians 
and I serve as an appellate justice for my tribe. I also appear 
today on behalf of United Tribes Technical College, the Inter-
Tribal Justice Program.
    United Tribes received a Bureau of Justice assistance grant 
in September 2004 under the Indian Alcohol and Substance Abuse 
Program. The grant received is administered through United 
Tribes, but the intended service area is comprised of the four 
major reservations in North Dakota.
    The purpose of the grant is to create an intertribal task 
force. The intention is that through cooperation among agencies 
at the tribal, State and Federal levels, a sensible solution to 
the methamphetamine epidemic will be created.
    What is unique about this task force is that it is 
comprised of a consortium of tribes, something that can prove 
often difficult within Indian country. Mr. Vice Chairman, I am 
pleased to report that the collaboration among the four tribes 
remains key to our success.
    As strongly stated already by tribal leaders and officials 
in addressing the methamphetamine problem, it is unrealistic 
for tribes to engage in a battle against substance abuse alone. 
Developing partnerships with local, State and Federal 
governments is necessary. In that vein, United Tribes' 
borderless strategy to combat substance abuse is in line with 
the objectives of the National Congress of American Indians 
urging tribes to develop laws and policies to combat 
methamphetamine abuse and drug trafficking; seeking tribal 
partnerships with the White House; and requesting congressional 
hearings to address the issue.
    It is important to stress at this point the accomplishment 
of one of those objectives through attendance at the hearing 
before the Senate Committee on Indian Affairs today.
    Mr. Vice Chairman, I would like to bring to your attention 
for 1 moment what is occurring within the U.S. Attorney's 
office, particularly the efforts of Thomas Heffelfinger. In 
October 2005 a task force of U.S. attorneys from throughout 
Indian country met with tribal leaders, including 
representatives of our task force. Mr. Heffelfinger indicated 
that the task force he has created will employ strategies 
similar to those of our grant.
    The plan will encourage U.S. attorneys in Indian country 
districts to work closely with tribal leaders and tribal, 
local, State, and Federal law enforcement personnel to ensure 
that law enforcement actions against methamphetamine 
manufacture, distribution and use in Indian country are carried 
out in a comprehensive manner that recognizes the needs of the 
various jurisdictions involved, most importantly, that 
addresses the law enforcement and safety needs of the citizens 
of tribal nations within Indian country.
    We believe this effort is an important step forward in 
combating methamphetamine use in Indian country.
    Mr. Vice Chairman, efforts at combating the methamphetamine 
problem in Indian country continue under the guidance of the 
Inter-Tribal Task Force in North Dakota. From meetings 
conducted thus far under the grant, United Tribes has 
identified key findings among tribal populations within the 
State.
    Approximately 90 percent of individuals entering treatment 
programs at Turtle Mountain are methamphetamine-related. There 
is a low recovery rate of methamphetamine addicts, 
approximately three percent, due to the fact that the treatment 
length is not long enough.
    IHS is not coding, that is tracking, methamphetamine use, 
so data is unreliable. There is currently no concrete data 
available. Methamphetamine dealers are traveling from 
reservation to reservation, which causes problems with 
jurisdictional issues. Juveniles are being used as dealers and 
pushers because of lesser sanctions against them.
    House explosions are occurring on reservations because of 
methamphetamine labs gone awry. For those reservation 
communities that have resident treatment facilities, there is a 
lack of bed space for new patients. Specifically at Turtle 
Mountain, we have a tribal population living on or near the 
reservation of about 14,000, and we have a resident treatment 
facility with only eight beds. This is highly inadequate.
    There are no treatment facilities within the State for 
juveniles, and the only long-term treatment facility for adults 
is at the State penitentiary. Treatment time is not long enough 
for methamphetamine addicts; 28 days is not enough time. 
Oftentimes, the need for recovery for methamphetamine addicts 
is 6 months or longer.
    There is a lack of law enforcement. There is not enough 
funding to address the need on many reservations, and due to 
recent budget cuts, the Turtle Mountain Reservation will lose 
its drug investigators. Spirit Lake will lose one police 
officer when it currently only has one officer on duty per 
shift.
    There is a dramatic increase in the number of babies being 
born affected by methamphetamine. Information is not being 
shared with the community. We need to educate the tribal 
community so members know what is going on with 
methamphetamine. Drug testing is not being done at all levels 
of employment in our tribal communities.
    As a brief side note, as you might be aware, Mr. Vice 
Chairman, the Turtle Mountain Band of Chippewa Indians recently 
passed unanimously by the tribal council an exclusion and 
removal ordinance. This ordinance has been at the forefront of 
the tribal chairman's agenda since July 2005 and was instituted 
to deter malicious violations on the reservation.
    The resolution applies to any individual who violates the 
peace, welfare and happiness of the tribal membership through 
illegal drug activity. This resolution is another example of 
the work being done at the grassroots level to combat the 
methamphetamine epidemic.
    Therefore, Mr. Vice Chairman, as is evident through the 
listing of preliminary findings, the implementation of the 
United Tribes grant is a proactive and positive step toward 
eradicating the methamphetamine problem in Indian country. 
Through collaboration and cooperation between all levels of 
government and continued support of grant programs that provide 
the opportunity to open the lines of communication between 
these levels of government, workable solutions will be 
identified and implemented to ensure the prosperity of future 
generations of Indian people.
    Mr. Vice Chairman, thank you for allowing me to testify 
today and I look forward to answering any questions you might 
have.
    [Prepared statement of Ms. Azure appears in appendix.]
    Senator Dorgan. Ms. Azure, thank you very much.
    I am going to ask a series of questions, then I will call 
on my colleague, Senator Murkowski.
    I am going to ask you, Ms. Azure, in a couple of minutes 
about the 90 percent of the individuals entering treatment 
programs at the Turtle Mountain Reservation being meth related. 
That is an unbelievable statistic. I am going to ask you about 
some of that.
    But first, Chairwoman Wesley-Kitcheyan, your testimony is 
just heartbreaking. I know you said that you, as chairman of 
our tribe, were almost reluctant to come here because of airing 
dirty laundry in public, the perception of doing that. I know 
you said that. I think your testimony is enormously helpful and 
I hope will persuade the Congress to work with you and with 
others and be much more aggressive, and I hope in the long term 
will save lives.
    Let me just review a couple of the things you described: A 
9-year-old meth user; 9 years old, a meth user; a 22-year-old 
meth user trying to commit suicide by stabbing himself with a 
10-inch knife; 101 suicide attempts on your reservation of, 
what, 15,000 people, you said?
    Ms. Wesley-Kitcheyan. About 13,000.
    Senator Dorgan. About 13,000 people, in 1 year, 101 suicide 
attempts, some related to meth. Of the past 10 suicide 
attempts, 8 of the individuals were using meth; in 2004, 64 
babies out of 256 born to the San Carlos Apache Tribal members 
were addicted to meth; 24 to 25 percent of pregnant women at 
the San Carlos Reservation tested positive for meth, pregnant 
women.
    Just going through this list, it just breaks your heart to 
understand the human misery that is visited upon these Indian 
reservations as a result of those who are peddling this deadly 
addiction to methamphetamine.
    But let me just say to you that it is very hard to talk 
about these things in public for a tribal chair on behalf of 
your people, but I think it is also very important, because if 
we don't get this country and the Congress to understand the 
dimensions of this crisis, it is not going to be responded to 
as aggressively as it must.
    I could tell when you described, was it your nephew?
    Ms. Wesley-Kitcheyan. My grandson.
    Senator Dorgan. Your grandson, a rodeo star, who took his 
own life, or was killed?
    Ms. Wesley-Kitcheyan. No; it was in a car accident. He was 
on the Tohono O'odham Reservation and he was engaged in human 
smuggling, as well as drinking and doing drugs.
    Senator Dorgan. Yes; I could tell when you described that 
and had difficulty describing it, how profoundly affected all 
of us are by what people get involved with when addicted to 
meth.
    I have at meth meetings in North Dakota used a series of 
about seven charts of a woman who was arrested for meth use, a 
vibrant beautiful woman, with her mug shot at a police station, 
and then over the next 6 years, six additional photographs of 
that woman. It is unbelievable to see what has happened. That 
woman at the end of 6 years looked almost like a cadaver. It is 
unbelievable the effect of methamphetamine on humans.
    Ms. Azure points out 90 percent of the individuals entering 
treatment programs at Turtle Mountain are methamphetamine 
addicted. She says there is a very low recovery rate for meth, 
which is what I was asking the Indian Health Service about. You 
say 3 percent due to the fact that treatment is not long 
enough.
    I don't want to give testimony here, but let me just also 
point out a family that came to a meeting I had in Dickinson, 
ND recently. A young daughter, 3.6 grade point average, junior 
in college, a terrific young woman, doing well, all of a sudden 
at a party got a hold of some meth, became addicted, and is in 
and out of jail ever since. And that family came to this 
meeting I had to say they were fortunate that that daughter of 
theirs was kept in jail for a lengthy period of time so that 
then they could find a treatment center where she now is that 
would give her at least 1 year to 15 months of concentrated 
treatment because that is the only way she can shed her 
addiction. She can't shed her addiction unless she has that 
kind of treatment.
    My great fear is that we don't have nearly enough resources 
devoted to this. First, stopping the flow from Mexico coming 
in; second, stopping the cooking of meth here in this country; 
third, when we have these people who are addicted, putting them 
into a treatment program that really does work, a lengthy 
program. This can't be like other addictions because it doesn't 
work the same way. It is much more deadly.
    I didn't mean to give a statement here, but I was really 
taken by the testimony here. Mr. Keel and Mr. Edwards, you 
described the additional money that is necessary. You can't do 
this without having treatment beds, without having law 
enforcement, without having intervention and opportunities.
    So let me just ask a couple of very brief questions. 
Chairwoman Wesley-Kitcheyan, this is the second time that you 
have been a part of a group that I have had the opportunity to 
listen to. You come to Washington, DC and you described to us 
this morning a devastating set of circumstances. You are a 
tribal leader. What is the most important one or two things 
that you think we can and must do to give you the tools and to 
be helpful to you to address this and turn it around?
    Ms. Wesley-Kitcheyan. I believe that the most important 
thing that Congress can do is to restore the funding to BIA, 
IHS, and possibly more as well, because the first panel 
described treatment centers. Some of my people have to wait and 
then they give up waiting to be placed in those treatment 
centers. Prevention, dollars for prevention would be number 
two, in my opinion. Social services is facing a $16-million 
shortfall in BIA. Next year, I understand it is going to be $11 
million. We need that. Our kids need that.
    Senator Dorgan. Ms. Azure, in your role as a tribal 
appellate judge, you have people come before you whom I assume 
you know, or at least others tell you, are addicted to 
methamphetamine. Is that correct?
    Ms. Azure. Yes; that is correct, particularly a lot of the 
kids that I see are involved in custody cases, because they 
were child abuse and neglect cases at the lower court level. 
The reason why many of the children were removed was because of 
meth use in the home.
    Senator Dorgan. And if you see someone coming before you 
that has a meth addiction, and you need to respond to that in 
your judicial role, what normally would you do? Because you 
understand from your testimony that treatment for that cannot 
be treatment of 2 weeks or 30 days somewhere. It has to be a 
much more aggressive treatment. What do you do?
    Ms. Azure. Unfortunately at the appellate level, we can 
either just dismiss the case or remand it to the lower court 
with instructions. In those cases, we would remand to the lower 
court with a recommendation that they seek further treatment. 
Along with what Ms. Wesley-Kitcheyan stated, in the State of 
North Dakota there are no treatment facilities for juveniles at 
all.
    Currently, at Turtle Mountain there are two juveniles that 
nobody wants to take in their treatment centers because of not 
only their substance abuse issues, but they have behavioral 
problems. They are unruly children, I guess, or unruly 
juveniles and they cannot be handled.
    So we have a problem with those two individuals. Their 
parents have nothing to do with them anymore. So this is a 
problem. This is the future of our reservation: These children. 
We have tried to get them into other State treatment programs. 
Oftentimes, South Dakota will handle these cases. And also for 
the adults, at Turtle Mountain we only have eight beds in our 
residential facility, which is not nearly enough. However, the 
State penitentiary does have a program and it seems to be 
working due to the fact that they are incarcerated for over the 
6-month period.
    Senator Dorgan. About 1\1/2\ weeks ago, I sat down with up 
to I guess 10 or 12 teenage students on an Indian reservation 
in North Dakota. No press was there. No parents were there. No 
teachers were there. I just wanted to sit down and talk to them 
about their lives, about the challenges, about substance abuse, 
about teenage pregnancy, all the things that are happening on 
their reservation that represent their experience.
    It was a fascinating discussion. Also heartbreaking in many 
ways as well, but we have so much to do.
    Mr. Edwards, I think you and Mr. Keel described 
circumstances where you believe that there are drug dealers 
going reservation to reservation to create addiction, and 
therefore create a market. Do you believe it is that 
deliberate? And how significant is that?
    Mr. Keel. Thank you, Mr. Chairman.
    I believe it is deliberate. I believe they treat it as a 
business. In order to create a business, you go to somewhere 
where the people are vulnerable. Our children are vulnerable in 
the rural areas where they have a lack of resources. For 
instance, law enforcement, I think it has already been pointed 
out that the vast area, the geographic size of some of these 
areas are unmanageable by tribal police.
    Senator Dorgan. When you say ``they,'' is it organized 
crime or is it the development of new drug rings?
    Mr. Keel. I believe it is both. I believe it is the, well, 
let me go back. A couple of years, 2 or 3 years ago in 
Oklahoma, we had a real epidemic of local folks cooking this 
meth. In the rural areas, they would cook it and then sell it 
and create a market.
    As the State of Oklahoma clamped down and created laws 
where it made it harder to buy the actual phedrine and some of 
the things are used in the manufacturing of this drug, it made 
it harder for them to get the materials. And so, this created 
an opportunity for some of the areas from Dallas, from Mexico, 
from other places to come in with their drug that is already 
made. The way you create a market is to get someone addicted. 
And so you give it away. You give this, or you create a real 
cheap market.
    Senator Dorgan. Do you think there is a deliberate strategy 
to create a customer base by addicting people with the free 
samples?
    Mr. Keel. Absolutely.
    Senator Dorgan. Mr. Edwards, would you comment on that? 
Then I am going to call on my colleague, Senator Murkowski.
    Mr. Edwards. Yes; I think it not only is organized by drug 
cartels and for money, but I also fear that terrorists and 
people that are wishing harm to our country in general are also 
orchestrating some of this particular advancement of 
methamphetamine, and the smuggling of that across the borders. 
It is relatively inexpensive compared to other drugs, but its 
treatment is severe, the implications of what it does to the 
brain and how long, as you mentioned, it takes for that person 
or persons to recover. I think that would be terrorist tactic 
that we must be aware of today and we must stop this drug from 
coming across our borders.
    There are certain things that we can do and we have done, 
and the Patriot Act helps us do that with regard to stopping 
the manufacture in the drug labs inside the United States. But 
now, all indications show that 80 percent of the drug is being 
smuggled from Mexico into the United States. We must stop that.
    Senator Dorgan. Mr. Edwards, thank you very much.
    Senator Murkowski.

   STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Senator Dorgan, and thank you 
to the witnesses that have given such compelling testimony here 
this afternoon.
    I wish that we had had an opportunity to point out the 
young people that were in the back of the room who just left. 
There must have been 20 of them at one point in time. I look at 
that, I look at them and recognize this is how we are going to 
make the difference when it comes to the prevention and the 
education. These young people need to hear how meth is killing 
our people. They need to understand that this is real, that 
this is devastating, and this could be them and their families.
    Unfortunately, as we know with all of our young people, 
there is a little bit of invincibility. We can do anything and 
make it through and be fine. Meth is different. And if there is 
one thing that I have picked up from the testimony that I have 
heard here this morning, meth is different and we need to treat 
it differently.
    Now, I was sitting here thinking, when it was cocaine or 
when it was ecstasy or when it was heroin, did we have a call 
for a drug czar? Did we have task forces being formed to look 
specifically at one drug? I don't recall that we did. I think 
we acknowledged that we have a terrible problem with substance 
abuse and we have to deal with it, but we have never identified 
one drug and said, this is killing our people. And meth is 
doing just this.
    And so, I appreciate the fact that we are using terminology 
like declaring war on meth. We must be tougher and stronger and 
more adamant about eliminating it, eradicating it than we have 
anything else because it will kill us in larger numbers than 
any other drug out there, is what I understand.
    And Mr. Chairman, I want to thank you for your very 
personal initiative and your leadership on this issue. We have 
a long way to go, and I was listening to you talk about how we 
have to approach the treatment differently. When we are talking 
about the dollars and acknowledging that treatment programs for 
young people simply don't exist and those that do are not 
adequate. We have a very seriously long way to go in how we are 
going to deal with this.
    We are seeing meth present its ugly head all over Alaska 
right now. I have always liked to think that we are far enough 
away, we are remote, we are inaccessible, we have geographic 
challenges that make certain aspects of commerce next to 
impossible in my communities. And you know what? Even with 
those challenges, something like meth gets in and it starts to 
take out our villages. We are seeing it up in Barrow, the 
furthest north community. That community has declared war. They 
were shocked when they discovered that meth was being cooked in 
Barrow.
    We don't quite know what to do yet, and listening to you, 
it appears to me that we are all in this together. Nobody quite 
knows what to do yet. I think it is because we are dealing with 
a drug that is different.
    Mr. Edwards, I want to ask you from the enforcement 
perspective, one of the issues that we have been dealing with 
in Alaska, so many of our villages are dry or damp, and so we 
try to put some accountability with the U.S. Postal Service to 
help us keep the alcohol out of the communities. How do we do 
it with something like meth, when you are talking about moving 
a much smaller, much easier to hide item? What hope can you 
give me in terms of what we are doing currently to stop the 
smuggling?
    You have indicated that 80 percent of this stuff is coming 
over the Mexican border. Are we making any headway at all in 
identifying and stopping?
    Mr. Edwards. I think we are making good headway in non-
Indian territory, but not near as quick a headway in Indian 
country because the resources have not been targeted there and 
delivered there. Indian country is doing the best we can with 
the resources we currently have, and it is a rare instance 
where the true partnership develops and we get the funding we 
need to stop those type of smuggling.
    One thing, and we are looking just at the continental 
United States and the 40 tribes within that area, that our 
surveys showed us was that of these tribes, the tribes believe 
that they need a total of 533 additional law enforcement 
officers just to maintain their current level of smuggling 
preparedness, patrols and general other criminal type 
activities.
    When we are dealing with methamphetamine, I think the key 
thing here is that we have to realize that this is not like we 
used to deal with cocaine or heroin, where we would go in and 
we would work and we would do a bust and we would work our way 
up the food chain. This is a unique, different culture. It is 
more of a closed culture. So consequently, it is much harder 
for law enforcement to infiltrate.
    So consequently, that is why I am saying we need to have a 
drug czar in place so that we can begin a planning strategic 
process that we understand now more about this terrible drug 
and disease. We understand that it is a very gang-prone method. 
It was a Hell's Angels drug back in the 1970's and 1980's. We 
have dealt with these things before. We have been successful, 
but we need to have a coordinated effort.
    Right now, we have a lot of different agencies going out 
and doing different things, conducting training and education, 
but somehow we need to pull that together.
    Senator Murkowski. You have indicated through your words 
here that you recognize that there has to be a different 
approach with this drug. Is that generally accepted within the 
law enforcement? And do they recognize that this approach has 
to be different with meth?
    Mr. Edwards. Yes; I think it is. And that is in Indian 
country and non-Indian country. The COPS office, the Community 
Oriented Policing Service, conducted a methamphetamine 
initiative back in 2005, and some of their findings at the end 
of 2005 indicated that they had five pilot sites and none were 
on reservations. And the approach that they used and what they 
learned are some of the things that I mentioned to you, that it 
is different, it is a more closed society.
    You do have it where you can manufacture it right there 
locally with people that know each other. These things that I 
am telling you are conclusions that they have drawn. But now we 
need to take that and make it a culturally effective thing for 
our particular Indian communities.
    Senator Murkowski. What can we do, and I will direct this 
to all of you who can jump in here, what can we do from the 
prevention and the education perspective within Indian country, 
up in our native villages, down on the reservations. What can 
we do to have an effective prevention message so that our young 
people are getting it and steer clear of it? What do we have to 
do? Does anybody have any good ideas?
    Mr. Keel. I will try. I think one of the problems that we 
have in Indian country is a lack of a coordinated strategy in 
Indian country for a message to go out nationally. There are 
some organizations, the National Congress of American Indians, 
the National American Indian Housing Council, several of those 
have newsletters that we send out. But tribes are not treated 
the same as States in terms of the grants that go out to some 
of the drug prevention strategies.
    I think a coordinated effort nationally that includes the 
tribes and the States and all of the other national agencies 
together, putting together a message that reaches our young 
people down at the high schools and even down in the junior 
high and elementary levels. It has to go locally. I think the 
Indian tribes with tribal governments are more local. They are 
more able to do that, particularly with the reservation and 
some that are isolated.
    Methamphetamines, it affects the whole family. It is 
shattering the families because there are instances, for 
instance in the Navajo Nation, where a grandmother was recently 
arrested, three generations of that one family, for selling 
drugs. You know, they are all involved. And so, somehow we have 
to reach our people and it has to be a coordinated strategy.
    Ms. Wesley-Kitcheyan. If I may please? Senator Murkowski, 
thank you very much.
    I really believe that one of the things we should do in 
terms of prevention and intervention is that we need to develop 
educational curriculum for Head Start students on up to the 
senior level.
    Secondly, I think we need to exercise tough love for our 
children. I know and I have seen many parents think that they 
do good by providing just about anything that children want, 
but that is not the way. We can develop a strong juvenile code 
as a tribe and stick with it. And continue to look for 
prevention programs, treatment centers, get in highly 
specialized personnel in the Indian Health Service or tribal 
health service to provide counseling for our children because 
we really don't have that at this point.
    Senator Murkowski. I appreciate the advice on kind of a 
coordinated campaign. Certainly from the national perspective, 
meth is huge, everywhere. But it does make me wonder if you 
don't need a more defined strategy within Indian country where 
the devastation just seems to be that much more acute.
    Of course, as a parent, we are all aware you can talk the 
talk, but if you are the messenger that teenagers are tuning 
out to, we can talk all we want. This is going to have to be 
something where we have an ability to actually have a 
communication with the young people. It is almost, maybe we ll 
need to sit down with 10 or 12 of them and do it one group at a 
time.
    I am not quite sure what it is, but we are not getting the 
message out yet that this is something that does kill you and 
your family, and that the long term consequences are simply not 
worth the risk.
    Mr. Edwards, you look like you wanted to jump in there.
    Mr. Edwards. I think when we look at meth, education is 
certainly a key for not only the children, but also for the 
tribal leaders, elders and the community in general, and also 
through the whole process of enforcement and then recovery.
    But you know, meth is like any adversary or foe. It has 
weaknesses. In Indian country, I think there are two primary 
vulnerabilities of meth that we can turn into our strengths. 
Those are peer groups, the use of peer groups, and the economy. 
Right now, it is a cheap substance. We must go into the 
distribution, the supply, the manufacturing method with our law 
enforcement and we must make that more expensive to where 
people can't afford it, for one reason.
    The next thing in dealing with the children and everything, 
we must remove the criminal peer groups such as gangs. And then 
we must interject and change those peer groups to positive 
organizations that are safe places for kids that provide hope 
for the future, such as Boys and Girls Clubs of America and 
tribal youth organizations.
    These have proven to be effective and I think used in the 
proper context, and also with the infiltration of police being 
there and explaining and educating in these particular groups, 
that we will be successful.
    Senator Murkowski. I am going up to the State next week and 
visiting in about five very small villages outside of the 
Kotzebue region. When I am in the State and am talking with 
young people, this is something that I bring up at every 
opportunity. I think it is something that we as policymakers, 
you and all of your roles, we need to be talking about it all 
the time and making sure that we have the facts with us, and 
letting our young people understand. So that will be my mission 
next week.
    Mr. Chairman, I want to thank you for again your leadership 
on this and for the time with the witnesses here this morning.
    Senator Dorgan. Senator Murkowski, thank you very much, and 
thanks for your continuing concern on the meth issue.
    I want to indicate again that Senator McCain was a 
stimulant for the calling of this hearing, along with myself, 
and is fully committed on this issue. He was called to 
leadership meetings this morning on the immigration bill that 
is on the floor.
    But Senator McCain and I plan to introduce later today 
legislation which would amend the recently enacted U.S.A. 
Patriot Act to specifically include tribal governments in 
methamphetamine reduction grants. It would add tribes to the 
two grant provisions for meth hot spot areas and drug-
endangered children, and clarify tribal eligibility for the 
competitive grants to address methamphetamine by pregnant and 
parenting women offenders.
    I wanted to make that point again, and to indicate on 
behalf of the chairman that this committee will continue to be 
vigilant and aggressive on the methamphetamine issue. We thank 
very much the witnesses who have come today to testify.
    This hearing is adjourned.
    [Whereupon, at 11:35 a.m., the committee was adjourned, to 
reconvene at the call of the chair.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


  Prepared Statement of Hon. Daniel K. Akaka, U.S. Senator from Hawaii

    Thank you Mr. Chairman and Mr. Vice Chairman for holding this 
important oversight hearing. I am pleased that our witnesses are 
provided this venue to discuss the effects of methamphetamine use in 
Indian country, as well as solutions that can be shared with Native and 
rural communities across the nation. Meth trafficking and usage are 
serious problems in this country that continue to significantly burden 
and disproportionately impact our Nation's indigenous people.
    With Hawaii having the highest meth usage rate in the country, I am 
very familiar with the devastating physical, social, and economical 
problems resulting from the presence of meth in our communities. 
Unfortunately, I have witnessed first hand the deterioration caused by 
meth usage on the well-being of Native Hawaiian youths and their 
communities. This drug depletes the productivity and energy of some of 
our brightest and most promising young people, robbing them of the 
experiences of youth and leaving them disadvantaged for the future. It 
also weakens the cultural foundation of these communities that in turn, 
inhibits the ability of our indigenous people to contribute to the 
larger society.
    I look forward to working with the committee and my colleagues to 
ensure that every effort is made to empower the indigenous people of 
this country to not only treat meth abuse, but also to prevent meth 
trafficking and usage in their communities. I thank the witnesses here 
today for presenting their testimony.
                                 ______
                                 

    Prepared Statement of Ivan D. Posey, Chairman, Eastern Shoshone 
                            Business Council

    Good morning. My name is Ivan Posey and I currently serve as the 
chairman for the Eastern Shoshone Business Council and cochair for the 
Eastern Shoshone and Northern Arapaho Joint Business Council. We both 
share the 2.3 million acre Wind River Indian Reservation in west 
central Wyoming. It is the only reservation in the State of Wyoming.
    There are currently 3,900 Eastern Shoshone and 8,200 Northern 
Arapaho tribal members. Over 50 percent of tribal members from both 
tribes are under the age of 30. The reservation is home to 
approximately 7,000 American Indians and 9,000 non-Indians.
    First of all I would to thank the distinguished Senators on the 
committee, including our own Senator Craig Thomas, for allowing me to 
testify on a very important issue that is affecting Indian country--
methamphetamine.
    I would like to present testimony on the following: Foster Care, 
Health Care, Education, and Law Enforcement.

FOSTER CARE

    According to workers in the social service programs for the tribes, 
methamphetamine plays a large role in 65 percent of all cases involving 
child neglect and placement of children in foster care. Use of the drug 
has devastating and sometimes lasting affects to the tribal family 
structure. Let me explain, foster care parents are hard to come by in 
Indian country which sometime places the burden on relative placement 
which may be the grandparents, uncles, aunts, and siblings. Although 
our extended family structure is a great strength for us it sometimes 
has negative affects on the children in the system that may still have 
close ties with a parent, or parents, who are still utilizing this 
illegal drug. When a family member has a substance abuse problem it 
affects the whole family. We don't alienate our family members and that 
sometimes creates a codependent system for the whole family including 
the children. With the drug so easily available and addictive it 
increases the chances of violence in households.
    The strain on our social workers is tremendous considering the 
rural setting of the reservation and the distance between our four 
communities and the towns of Lander and Riverton. The continuing 
coordination with the court system, recovery programs, counselors and 
others involved with children is, at times, overwhelming. Our social 
services programs are staffed with committed people who are being 
bombarded with the affects of this drug in an already strained system.
    I believe that we must provide the family with the necessary tools 
to adequately address this problem. This may include counseling for the 
entire family and the resources to adequately fund these initiatives. I 
understand that there is no easy solution when it comes to the 
devastating affects of methamphetamine in Indian country but realize 
that family structure is the most important.

    EDUCATION AND HEALTH CARE

    There was an instance where a young lady went to school 
``tweaking'' from the affects of this drug. She mentioned to her 
friends that she acquired the drug from her parents ``stash'' and that 
she would share with them if they wanted some. The sad part of this 
story is that this young lady was in sixth grade.
    Access to this drug has become more available to students in all 
grades on and off our reservation.
    Methamphetamine among parents affects students, especially 
preschool and Head Start age, through increased absenteeism and 
malnutrition. When parents who use don't have an appetite they in turn 
don't feed their children. This has a direct affect on a child's 
learning ability.
    Education, I feel, is the key to addressing the problem of 
methamphetamine in Indian country. Whether it is the local school 
system, tribal governments, or interagency coordination, getting the 
word out on the devastating affects of this drug is essential. There 
has to be more efforts to educate our elders and community members to 
the dangers of methamphetamine use. Our tribe currently performs pre-
employment and random drug testing and has established an employee 
assistance program for those who wish to seek help if they are tested 
positive.
    Our health care system in Indian country is already at the breaking 
point for providing adequate health care for tribal people. 
Methamphetamine use has increased the number of vehicle crashes, 
domestic violence visits, and prolonged hospital stays due to some of 
these factors.
    The use of this drug has long lasting affects to those who become 
addicted. Long term affects range from continued mental and dental care 
to permanent brain damage. Some people will become lifelong patients to 
our tribal health care systems.
    What is needed in Indian country are residential treatment 
facilities that address chemical dependency in sometimes a cultural and 
traditional manner; 80 percent of all residents in the Rock Springs, WY 
treatment facility are from the Fremont County, where we reside. This 
facility is 2.5 hours away from our home. Some youth patients go as far 
as California and South Dakota.

LAW ENFORCEMENT

    Law enforcement have seen four homicides in 2004 related to 
methamphetamine use on the Wind River Reservation. There were 284 drug 
related misdemeanors in 2004 [possession, sell, and manufacture] with 
99 in 2005. There were also 125 child abuse cases reported in 2004 and 
90 in 2005.
    One of the key aspects to combat methamphetamine was the 
establishments of partnerships with the Drug Enforcement Agency and the 
Wyoming Department of Criminal Investigation. Support from the Shoshone 
and Arapaho Tribe Joint Business Council for this partnership was 
instrumental in allowing this to happen in 2004.
    Our local law enforcement has been very active working with other 
organizations to address the problem and look at the issue in a broader 
sense.
    The major drug bust in May 2005 has shown that this drug does not 
discriminate. From our judicial system to our local schools it has, and 
continues, to have drastic affects. With our rural setting we still 
need enough uniformed officers to adequately patrol and protect our 
homes. We need an increase of funding for our law enforcement and 
tribal courts in Indian country.

SUMMARY

    In closing I would like to emphasize the need for more prevention 
programs that can be offered through our Boys and Girls Clubs or other 
youth organizations. There is also a place for this at our senior 
citizens programs. We need to continue to educate at all age levels and 
strongly push the negative affects of this drug. We also need to look 
at long term treatment facilities in areas such as ours which are in 
rural settings which makes us send our loved ones to other states to 
receive treatment. The emphasis needs to be Prevention, Education, and 
Treatment. Unfortunately, those caught in the middle are subject to our 
law enforcement and judicial systems.
    As sovereign nations, Indian tribes need to look forward to ensure 
that we pass the torch to our younger generation so our people have the 
same right to quality of life and other opportunities as we have had. 
Methamphetamine is a very real threat that we need to address and 
overcome as a Nation to feel we did what we could to make this a better 
place for those who follow us.
    Thank You.

    [GRAPHIC] [TIFF OMITTED] T6930.001
    
    [GRAPHIC] [TIFF OMITTED] T6930.002
    
    [GRAPHIC] [TIFF OMITTED] T6930.003
    
    [GRAPHIC] [TIFF OMITTED] T6930.004
    
    [GRAPHIC] [TIFF OMITTED] T6930.005
    
    [GRAPHIC] [TIFF OMITTED] T6930.006
    
    [GRAPHIC] [TIFF OMITTED] T6930.007
    
    [GRAPHIC] [TIFF OMITTED] T6930.008
    
    [GRAPHIC] [TIFF OMITTED] T6930.009
    
    [GRAPHIC] [TIFF OMITTED] T6930.010
    
    [GRAPHIC] [TIFF OMITTED] T6930.011
    
    [GRAPHIC] [TIFF OMITTED] T6930.012
    
    [GRAPHIC] [TIFF OMITTED] T6930.013
    
    [GRAPHIC] [TIFF OMITTED] T6930.014
    
    [GRAPHIC] [TIFF OMITTED] T6930.015
    
    [GRAPHIC] [TIFF OMITTED] T6930.016
    
    [GRAPHIC] [TIFF OMITTED] T6930.017
    
    [GRAPHIC] [TIFF OMITTED] T6930.018
    
    [GRAPHIC] [TIFF OMITTED] T6930.019
    
    [GRAPHIC] [TIFF OMITTED] T6930.020
    
    [GRAPHIC] [TIFF OMITTED] T6930.021
    
    [GRAPHIC] [TIFF OMITTED] T6930.022
    
    [GRAPHIC] [TIFF OMITTED] T6930.023
    
    [GRAPHIC] [TIFF OMITTED] T6930.024
    
    [GRAPHIC] [TIFF OMITTED] T6930.025
    
    [GRAPHIC] [TIFF OMITTED] T6930.026
    
    [GRAPHIC] [TIFF OMITTED] T6930.027
    
    [GRAPHIC] [TIFF OMITTED] T6930.028
    
    [GRAPHIC] [TIFF OMITTED] T6930.029
    
    [GRAPHIC] [TIFF OMITTED] T6930.030
    
    [GRAPHIC] [TIFF OMITTED] T6930.031
    
    [GRAPHIC] [TIFF OMITTED] T6930.032
    
    [GRAPHIC] [TIFF OMITTED] T6930.033
    
    [GRAPHIC] [TIFF OMITTED] T6930.034
    
    [GRAPHIC] [TIFF OMITTED] T6930.035
    
    [GRAPHIC] [TIFF OMITTED] T6930.036
    
    [GRAPHIC] [TIFF OMITTED] T6930.037
    
    [GRAPHIC] [TIFF OMITTED] T6930.038
    
    [GRAPHIC] [TIFF OMITTED] T6930.039
    
    [GRAPHIC] [TIFF OMITTED] T6930.040
    
    [GRAPHIC] [TIFF OMITTED] T6930.041
    
    [GRAPHIC] [TIFF OMITTED] T6930.042
    
    [GRAPHIC] [TIFF OMITTED] T6930.043
    
    [GRAPHIC] [TIFF OMITTED] T6930.044
    
    [GRAPHIC] [TIFF OMITTED] T6930.045
    
    [GRAPHIC] [TIFF OMITTED] T6930.046
    
    [GRAPHIC] [TIFF OMITTED] T6930.047
    
    [GRAPHIC] [TIFF OMITTED] T6930.048
    
    [GRAPHIC] [TIFF OMITTED] T6930.049
    
    [GRAPHIC] [TIFF OMITTED] T6930.050
    
    [GRAPHIC] [TIFF OMITTED] T6930.051
    
    [GRAPHIC] [TIFF OMITTED] T6930.052
    
    [GRAPHIC] [TIFF OMITTED] T6930.053
    
    [GRAPHIC] [TIFF OMITTED] T6930.054
    
    [GRAPHIC] [TIFF OMITTED] T6930.055
    
    [GRAPHIC] [TIFF OMITTED] T6930.056
    
    [GRAPHIC] [TIFF OMITTED] T6930.057
    
    [GRAPHIC] [TIFF OMITTED] T6930.058
    
    [GRAPHIC] [TIFF OMITTED] T6930.059
    
    [GRAPHIC] [TIFF OMITTED] T6930.060
    
    [GRAPHIC] [TIFF OMITTED] T6930.061
    
    [GRAPHIC] [TIFF OMITTED] T6930.062
    
    [GRAPHIC] [TIFF OMITTED] T6930.063
    
    [GRAPHIC] [TIFF OMITTED] T6930.064
    
    [GRAPHIC] [TIFF OMITTED] T6930.065
    
    [GRAPHIC] [TIFF OMITTED] T6930.066
    
    [GRAPHIC] [TIFF OMITTED] T6930.067
    
    [GRAPHIC] [TIFF OMITTED] T6930.068
    
    [GRAPHIC] [TIFF OMITTED] T6930.069
    
    [GRAPHIC] [TIFF OMITTED] T6930.070
    
    [GRAPHIC] [TIFF OMITTED] T6930.071
    
    [GRAPHIC] [TIFF OMITTED] T6930.072
    
    [GRAPHIC] [TIFF OMITTED] T6930.073
    
    [GRAPHIC] [TIFF OMITTED] T6930.074
    
    [GRAPHIC] [TIFF OMITTED] T6930.075
    
    [GRAPHIC] [TIFF OMITTED] T6930.076
    
    [GRAPHIC] [TIFF OMITTED] T6930.077
    
    [GRAPHIC] [TIFF OMITTED] T6930.078
    
    [GRAPHIC] [TIFF OMITTED] T6930.079
    
    [GRAPHIC] [TIFF OMITTED] T6930.080
    
    [GRAPHIC] [TIFF OMITTED] T6930.081
    
    [GRAPHIC] [TIFF OMITTED] T6930.082
    
    [GRAPHIC] [TIFF OMITTED] T6930.083
    
    [GRAPHIC] [TIFF OMITTED] T6930.084
    
    [GRAPHIC] [TIFF OMITTED] T6930.085
    
    [GRAPHIC] [TIFF OMITTED] T6930.086
    
    [GRAPHIC] [TIFF OMITTED] T6930.087
    
    [GRAPHIC] [TIFF OMITTED] T6930.088
    
    [GRAPHIC] [TIFF OMITTED] T6930.089
    
    [GRAPHIC] [TIFF OMITTED] T6930.090
    
    [GRAPHIC] [TIFF OMITTED] T6930.091
    
    [GRAPHIC] [TIFF OMITTED] T6930.092
    
    [GRAPHIC] [TIFF OMITTED] T6930.093
    
    [GRAPHIC] [TIFF OMITTED] T6930.094
    
    [GRAPHIC] [TIFF OMITTED] T6930.095
    
    [GRAPHIC] [TIFF OMITTED] T6930.096
    
    [GRAPHIC] [TIFF OMITTED] T6930.097
    
    [GRAPHIC] [TIFF OMITTED] T6930.098
    
    [GRAPHIC] [TIFF OMITTED] T6930.099
    
    [GRAPHIC] [TIFF OMITTED] T6930.100
    
    [GRAPHIC] [TIFF OMITTED] T6930.101
    
    [GRAPHIC] [TIFF OMITTED] T6930.102
    
    [GRAPHIC] [TIFF OMITTED] T6930.103
    
    [GRAPHIC] [TIFF OMITTED] T6930.104
    
    [GRAPHIC] [TIFF OMITTED] T6930.105
    
    [GRAPHIC] [TIFF OMITTED] T6930.106
    
    [GRAPHIC] [TIFF OMITTED] T6930.107
    
    [GRAPHIC] [TIFF OMITTED] T6930.108
    
    [GRAPHIC] [TIFF OMITTED] T6930.109
    
    [GRAPHIC] [TIFF OMITTED] T6930.110
    
    [GRAPHIC] [TIFF OMITTED] T6930.111
    
    [GRAPHIC] [TIFF OMITTED] T6930.112
    
    [GRAPHIC] [TIFF OMITTED] T6930.113
    
    [GRAPHIC] [TIFF OMITTED] T6930.114
    
    [GRAPHIC] [TIFF OMITTED] T6930.115
    
    [GRAPHIC] [TIFF OMITTED] T6930.116
    
    [GRAPHIC] [TIFF OMITTED] T6930.117
    
    [GRAPHIC] [TIFF OMITTED] T6930.118
    
    [GRAPHIC] [TIFF OMITTED] T6930.119
    
    [GRAPHIC] [TIFF OMITTED] T6930.120
    
    [GRAPHIC] [TIFF OMITTED] T6930.121
    
    [GRAPHIC] [TIFF OMITTED] T6930.122
    
    [GRAPHIC] [TIFF OMITTED] T6930.123
    
    [GRAPHIC] [TIFF OMITTED] T6930.124
    
    [GRAPHIC] [TIFF OMITTED] T6930.125
    
    [GRAPHIC] [TIFF OMITTED] T6930.126
    
    [GRAPHIC] [TIFF OMITTED] T6930.127
    
    [GRAPHIC] [TIFF OMITTED] T6930.128
    
    [GRAPHIC] [TIFF OMITTED] T6930.129
    
    [GRAPHIC] [TIFF OMITTED] T6930.130
    
    [GRAPHIC] [TIFF OMITTED] T6930.131
    
    [GRAPHIC] [TIFF OMITTED] T6930.132
    
    [GRAPHIC] [TIFF OMITTED] T6930.133
    
    [GRAPHIC] [TIFF OMITTED] T6930.134
    
    [GRAPHIC] [TIFF OMITTED] T6930.135
    
    [GRAPHIC] [TIFF OMITTED] T6930.136
    
    [GRAPHIC] [TIFF OMITTED] T6930.137
    
    [GRAPHIC] [TIFF OMITTED] T6930.138
    
    [GRAPHIC] [TIFF OMITTED] T6930.139
    
    [GRAPHIC] [TIFF OMITTED] T6930.140
    
    [GRAPHIC] [TIFF OMITTED] T6930.141
    
    [GRAPHIC] [TIFF OMITTED] T6930.142
    
    [GRAPHIC] [TIFF OMITTED] T6930.143
    
    [GRAPHIC] [TIFF OMITTED] T6930.144
    
    [GRAPHIC] [TIFF OMITTED] T6930.145
    
    [GRAPHIC] [TIFF OMITTED] T6930.146
    
    [GRAPHIC] [TIFF OMITTED] T6930.147
    
    [GRAPHIC] [TIFF OMITTED] T6930.148
    
    [GRAPHIC] [TIFF OMITTED] T6930.149
    
    [GRAPHIC] [TIFF OMITTED] T6930.150
    
    [GRAPHIC] [TIFF OMITTED] T6930.151
    
    [GRAPHIC] [TIFF OMITTED] T6930.152
    
    [GRAPHIC] [TIFF OMITTED] T6930.153
    
    [GRAPHIC] [TIFF OMITTED] T6930.154
    
    [GRAPHIC] [TIFF OMITTED] T6930.155
    
    [GRAPHIC] [TIFF OMITTED] T6930.156
    
    [GRAPHIC] [TIFF OMITTED] T6930.157
    
    [GRAPHIC] [TIFF OMITTED] T6930.158
    
    [GRAPHIC] [TIFF OMITTED] T6930.159
    
    [GRAPHIC] [TIFF OMITTED] T6930.160
    
    [GRAPHIC] [TIFF OMITTED] T6930.161
    
    [GRAPHIC] [TIFF OMITTED] T6930.162
    
    [GRAPHIC] [TIFF OMITTED] T6930.163
    
    [GRAPHIC] [TIFF OMITTED] T6930.164
    
                                 <all>

</pre></body></html>
